<html>
<title> - INVESTING IN EARLY EDUCATION: PATHS TO IMPROVING CHILDREN'S SUCCESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  INVESTING IN EARLY EDUCATION: PATHS TO IMPROVING CHILDREN'S SUCCESS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, JANUARY 23, 2008

                               __________

                           Serial No. 110-75

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

40-225 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director











































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on January 23, 2008.................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............     4
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut, prepared statement of................     4
    Hirono, Hon. Mazie K., a Representative in Congress from the 
      State of Hawaii............................................     5
        Additional submissions:
            DeLauro, Hon. Rosa L., a Representative in Congress 
              from the State of Connecticut, prepared statement 
              of.................................................     6
            Melmed, Matthew, executive director, Zero to Three, 
              prepared statement of..............................    77
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     6
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     7
        Prepared statement of....................................     9
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor, prepared statement of...............................     3

Statement of Witnesses:
    Chun, Elisabeth, executive director, Hawaii Good Beginnings 
      Alliance...................................................    29
        Prepared statement of....................................    31
    Haskins, Ron, Ph.D., senior fellow, economic studies, 
      Brookings Institution......................................    43
        Prepared statement of....................................    46
    Karolak, Eric, executive director, Early Care and Education 
      Consortium.................................................    38
        Prepared statement of....................................    40
    Kolb, Charles E.M., president, Committee for Economic 
      Development................................................    35
        Prepared statement of....................................    36
    Phillips, Deborah A., Ph.D., professor, department of 
      psychology, Georgetown University..........................    12
        Prepared statement of....................................    15
        Letter, dated January 30, 2008...........................    20
    Priestly, Kathleen, early education coordinator, Orange City 
      School District............................................    21
        Prepared statement of....................................    23


  INVESTING IN EARLY EDUCATION: PATHS TO IMPROVING CHILDREN'S SUCCESS

                              ----------                              


                      Wednesday, January 23, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in room 
2175, Rayburn House Office Building, Hon. Mazie Hirono 
presiding.
    Present: Representatives Kildee, Payne, Kucinich, Holt, 
Bishop of New York, Sarbanes, Sestak, Hirono, Hare, Clarke, 
Shea-Porter, McKeon, Petri, Castle, Platts, Keller, Kline, 
Foxx, and Davis of Tennessee.
    Staff present: Tylease Alli, Hearing Clerk; Lynne Campbell, 
Legislative Fellow for Education; Denise Forte, Director of 
Education Policy; Ruth Friedman, Senior Education Policy 
Advisor (Early Childhood); Lloyd Horwich, Policy Advisor, 
Subcommittee on Early Childhood Education and Secondary 
Education; Lamont Ivey, Staff Assistant, Education; Thomas 
Kiley, Communications Director; Danielle Lee, Press/Outreach 
Assistant; Stephanie Moore, General Counsel; Alex Nock, Deputy 
Staff Director; Joe Novotny, Chief Clerk; Rachel Racusen, 
Deputy Communications Director; Margaret Young, Staff 
Assistant, Education; Mark Zuckerman, Staff Director; Stephanie 
Arras, Minority Legislative Assistant; James Bergeron, Minority 
Deputy Director of Education and Human Services Policy; Robert 
Borden, Minority General Counsel; Cameron Coursen, Minority 
Assistant Communications Director; Kirsten Duncan, Minority 
Professional Staff Member; Rob Gregg, Minority Legislative 
Assistant; Victor Klatt, Minority Staff Director; Chad Miller, 
Minority Professional Staff; Susan Ross, Minority Director of 
Education and Human Services Policy; Linda Stevens, Minority 
Chief Clerk/Assistant to the General Counsel; and Hannah Snoke, 
Minority Receptionist/Administrative Assistant.
    Ms. Hirono [presiding]. A quorum being present, the 
committee will come to order.
    Good morning. On behalf of Chairman Miller, I would like to 
welcome everyone to our hearing, ``Investing in Early 
Education: Paths to Improving Children's Success.''
    I cannot think of a more critical issue for us to explore 
in our first full committee hearing of 2008 than the need for 
expanding quality early education opportunities for our 
nation's children.
    As we will hear from our panel of experts today, providing 
a good educational foundation for our children during their 
earliest years of life not only improves student success down 
the road, but is vital to building a stronger, more innovative, 
and competitive future for our country.
    Over the past decade, there has been groundbreaking 
research on brain and child development that underscores the 
importance of the first 5 years of a child's life. In 
combination with their genes, children's experiences in these 
critical early years influence brain chemistry, architecture, 
and growth in ways that can have lasting effects on their 
health, learning, and behavior.
    Families are children's first and most important teachers 
throughout life, but with nearly 12 million children under the 
age of 5, or nearly two-thirds of all American children under 
5, in some type of regular child care arrangement, early care 
and education providers also play a great role in children's 
development and growth.
    As a nation, we simply cannot afford to ignore the types 
and quality of early care and education settings that are 
available to our children. Research shows that the achievement 
gap we see in elementary school and beyond exists before 
children enter kindergarten. The Early Childhood Longitudinal 
Study overseen by the Department of Education, for example, 
found twice as many 4-year-olds from upper-income family 
households were proficient in early math skills when compared 
to 4-year-olds from the lowest-income households. What this 
means is that if education reform begins in elementary school, 
we are starting 5 years too late.
    But the quality of early education is not just an issue for 
low-income families. Finding high-quality, affordable care and 
education can be difficult for all families. The average cost 
of child care averages between $4,000 and $10,000 a year and 
usually ranks as the second highest expense for families after 
housing.
    Federal, state, and local programs have shown us that 
investments in high-quality early education can make a 
tremendous difference in children's futures both in and outside 
the classroom. High-quality early education can improve 
children's reading, math, and language skills, strengthen 
parenting practices, and help increase school readiness and 
lead to better health and behavior.
    But we also have a long way to go to ensure that all 
children can get a high-quality early education foundation. 
Pre-K and child care standards and oversight vary greatly 
across states. A vast majority of states have no training 
requirements for child care providers prior to working in a 
classroom, and 13 state pre-K programs meet five or fewer of 10 
key quality criteria.
    The first 5 years of life provide us with an incredible 
opportunity to ensure that all children have the tools they 
need to achieve in elementary school and beyond. Investments in 
these programs must be made wisely, and we must ensure that we 
target resources to what works.
    But it is clear that new and greater investments must also 
be made. If we are to succeed at reforming our education system 
and ensuring success for all children, then improving the early 
care and education settings for our youngest children must be 
one of our top priorities, and if we are to maintain our 
leadership in this global economy, we must focus on investing 
in our children during their most formative years.
    I want to thank all of the witnesses for being here today 
and look forward to hearing from each of you on what the 
science tells us about what is working and what challenges lay 
ahead.
    Thank you.
    Pursuant to Rule 12(a), all members may submit an opening 
statement in writing which will be made part of the permanent 
record.
    I now recognize the senior Republican member, Mr. McKeon, 
for an opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. I'd like to welcome everyone to our hearing: 
``Investing in Early Education: Paths to Improving Children's 
Success.''
    I can't think of a more critical issue for us to explore in our 
first full committee hearing of 2008 than the need for expanding 
quality early education opportunities for our nation's children.
    As we will hear from our panel of experts today, providing a good 
educational foundation for our children during their earliest years of 
life not only improves student success down the road, but is vital to 
building a stronger, more innovative, and competitive future for our 
country.
    Over the past decade, there has been groundbreaking research on 
brain and child development that underscores the importance of the 
first five years of a child's life.
    In combination with their genes, children's experiences in these 
critical early years influence brain chemistry, architecture, and 
growth in ways that can have lasting effects on their health, learning, 
and behavior.
    Families are children's first and most important teachers 
throughout life.
    But with nearly 12 million children under the age of five--or 
nearly two-thirds of all American children under five--in some type of 
regular child care arrangement, early care and education providers also 
play a great role in children's development and growth.
    As a nation, we simply cannot afford to ignore the types and 
quality of early care and education settings that are available to our 
children.
    Research shows that the achievement gap we see in elementary school 
and beyond exists before children enter kindergarten.
    The Early Childhood Longitudinal Study overseen by the Department 
of Education, for example, found twice as many 4-year-olds from upper-
income family households were proficient in early math skills when 
compared to 4-year-olds from the lowest income households.
    What this means is that if education reform begins in elementary 
school--we're starting 5 years too late.
    But the quality of early education is not just an issue for low-
income families. Finding high-quality, affordable care and education 
can be difficult for all families.
    The average cost of child care averages between $4,000 and $10,000 
a year--and usually ranks as the second highest expense for families, 
after housing.
    Federal, state, and local programs have shown us that investments 
in high quality early education can make a tremendous difference in 
children's futures--both in and outside the classroom.
    High quality early education can improve children's reading, math, 
and language skills, strengthen parenting practices that help increase 
school readiness, and lead to better health and behavior.
    But we also have a long way to go to ensure that all children can 
get a high-quality early education foundation.
    Pre-k and child care standards and oversight vary greatly across 
states.
    A vast majority of states have no training requirement for child 
care providers prior to working in a classroom and thirteen state pre-k 
programs meet 5 or fewer of 10 key quality criteria.
    The first five years of life provide us with an incredible 
opportunity to ensure that all children have the tools they need to 
achieve in elementary school and beyond.
    Investments in these programs must be made wisely and we must 
ensure that we target resources to what works.
    But it is clear that new and greater investments must also be made.
    If we are to succeed at reforming our education system and ensuring 
success for all children, then improving the early care and education 
settings for our youngest children must be one of our top priorities.
    And if we are to maintain our leadership in this global economy, we 
must focus on investing in our children during their most formative 
years.
    I want to thank all the witnesses for being here today and look 
forward to hearing from each of you about what the science tells us 
about what is working and what challenges lay ahead.
    Thank you.
                                 ______
                                 
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Miller, for holding this important hearing on 
early childhood education.
    As the member of the board of an early childhood education program 
in Braddock, Pennsylvania I have been able to see first hand the 
incredible benefits that early childhood education provides to 
children, families, and communities. Students that participate in high-
quality early childhood education do better in school, are less likely 
to commit crimes, and are more likely to attend college or become 
gainfully employed after high school, than their peers. In fact, 
studies of high-quality early childhood education programs show that 
for every dollar invested in these programs they provide an economic 
benefit to society of between $1.25 and $17.
    Earlier this year, this committee reauthorized the Head Start 
Program. I believe that the Improving Head Start for School Readiness 
Act of 2007 will significantly enhance what is already a very good 
federal program. Today, I look forward to learning more about how the 
federal government can help to improve early childhood education and to 
hearing where our investment is having the most impact.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [The statement of Mr. Courtney follows:]

 Prepared Statement of Hon. Joe Courtney, a Representative in Congress 
                     From the State of Connecticut

    Chairman Miller, thank you for convening a hearing today on one of 
the most important investments that we can make in our public education 
system: early education services. As members of the Committee on 
Education and Labor, few things are more important to us than the 
success of our children. In light of overwhelming evidence supporting 
investments in early education services, it is critical that we act 
expeditiously in delivering these services to our Nation's children.
    The success of our education system directly relates to the 
potential health and prosperity of our Nation. In order for our 
education systems to be successful, we must remain vigilant of 
effective academic programs and improve and expand investment until 
these systems reflect our highest aspirations. In the past decade, 
education research has consistently concluded the same message: 
investments in quality early education services provide substantial, 
sustainable, and cost-effective benefits.
    Early education service investments, specifically during the 
initial years of life, facilitate mentally, physically, emotionally, 
and academically prepared students in the future. This in turn, 
provides opportunity for success in institutions of higher education 
and ultimately expanded opportunity for professional success in latter 
years. These investments reduce the need for disciplinary programs in 
primary and secondary school as well as reduce the need for future 
social services by expanding potential for professional success.
    Early education service investments are especially important for 
children from low-income families as the potential for academic failure 
is disproportionately higher for this demographic: high school dropout 
rates are high and higher education matriculation rates are low. 
Federal programs, like Head Start, address the nutrition, emotional, 
social, and academic needs of young children from low-income families 
and will ultimately prepare the most susceptible children for academic 
and professional success.
    As we look to further integrate and improve early education 
programs in national education priorities, we must reflect on the 
successes of public and private programs at the state and local levels. 
I am proud to represent a state that has continued to set high 
standards for early education funding and quality of programs. 
According to the National Institute for Early Education Research 
(NIEER), Connecticut has one of the highest per pupil expenditure rates 
in the Nation. During the 2005-2006 academic year, Connecticut averaged 
$7,101 per pupil on early education programs. This funding is used to 
deliver quality programs that incorporate physical, language and 
literacy, cognitive and intellectual, emotional and cultural focuses in 
early education curriculum.
    Mr. Chairman, it is clear that investments in early education are 
inextricably linked to potential future academic and professional 
success. Because these gains are aggregate, it is imperative that we 
act now with outreach expansion and program improvement. For these 
reasons, I joined with my fellow Connecticut colleagues, Representative 
DeLauro and Senator Dodd, in introducing legislation that will 
facilitate these efforts.
    The Early Childhood Investment Act (H.R. 2616) will establish a 
grant program to reward public and private entities that strengthen 
collaborative efforts with early education services. Additional health 
and education services will be used when the time is most critical in a 
child's life: from birth through the age of five. These investments 
will produce healthier, happier and better prepared children in both 
the short and long term, while sharing federal costs with the local, 
state and private entities.
    In order to create a mentally, physically, emotionally and 
academically prepared student body and in turn, professional workforce, 
we must prioritize investments in quality early education services.
                                 ______
                                 
    [The statement of Ms. DeLauro follows:]

    Prepared Statement of Hon. Rosa L. DeLauro, a Representative in 
                 Congress From the State of Connecticut

    Chairman Miller, Members of the Committee, thank you for the 
opportunity to testify today. I was glad to join you last year as co-
chair of the Speaker's National Children Summit and I am delighted to 
see your committee addressing one of its central issues: early 
childhood education. This is one of the most important issues facing 
the future of our country and I am glad the committee is investing the 
time and energy to examine it closely.
    Each of us believes that children should grow up healthy and safe--
they should have the opportunity to learn and participate fully in 
society. That is why investing in early childhood education, whether 
through pre-k programs or child care, is so critical. With a Majority 
in Congress committed to the well-being of our children, I know we can 
make that vision a reality.
    Today, the parents of more than 55 million school-age children work 
outside the home. A third of those children either live in low-income 
households or would be poor if their mother did not work. That means 
millions of parents are out of the house, and we know that their 
children are likely to be cared for in a setting outside the home.
    So for many working women, child care and early childhood programs 
are the only source of peace of mind that comes with knowing that their 
child will be safe and sound during the time they cannot be with their 
children. Parents can focus on their jobs, confident that their 
children are in safe, responsible hands. Yet, early childhood programs 
are critical not only because they keep our children safe, but also 
because they provide them the opportunity to learn and be productive 
during those hours.
    We now know that 80 percent of brain development occurs by age 
three, with up to 90 percent of its capacity in the first five years. 
Prominent scientists all agreed--the first year is critical in laying a 
foundation for future development, with neuroscience pointing the way 
to how positive relationships and experiences play a large role in the 
development of the child's brain. And while early abuse, neglect, or 
trauma can have a profound negative impact on a child's development, we 
also know he or she will recover far more quickly with the right care 
in the right environment.
    We know that the time children spend in a child care or pre-k 
programs help to influence lifelong learning patterns. Quality early 
care can make a big difference in children's cognitive development and 
positively affect children's performance well into their school 
careers.
    In this area, we must look to states that are leading the way. For 
example, Connecticut established school readiness funding in 1997 to 
serve three and four year-old children and is now looking at pre-natal 
through grade three services with their long-term initiative ``Ready by 
5 & Fine by 9.'' They are working on a comprehensive early childhood 
investment plan which will coordinate and leverage resources in a 
strategic manner.
    Yet, despite the work in states like Connecticut, quality early 
childhood programs simply are not readily available to the families 
that need them most. Three out of five young children are in child care 
every day--nearly 12 million children--but only 1 out of 7 children who 
are eligible for federal child care assistance receive any benefits 
under the Child Care Development Block Grant. Further, the cost is 
often extremely high--reaching up to $14, 647 a year for center-based 
infant care and $10,920 annually for a 4-year-old in a center.
    In the case of early-learning programs, the situation is dire. For 
over 4 decades, Head Start, the federal early childhood development 
program has provided comprehensive child development, literacy, and 
family services to more than 18 million infants, toddlers, and 3- and 
4-year-olds from low-income and working-poor families. But today, only 
about 45 percent of those eligible receive Head Start services.
    We clearly need new thinking in this area. That is why I am proud 
to have worked with my colleagues Senator Christopher Dodd and 
Representative Joe Courtney, in introducing legislation to create and 
enhance public-private-partnerships that will strengthen investment in 
early childhood development programs. ``The Early Childhood Investment 
Act of 2007'' would establish a grant program to award funding to a 
public-private partnership in a state which will then leverage 
additional resources to supplement existing state and federal funds in 
local community initiatives. It would also improve access to and 
quality of early childhood development for children from birth through 
age five and their families.
    Partnerships can be effective in leveraging funding from nonprofit 
or for-profit organizations, private entities and state government to 
increase investment in high quality early childhood development 
programs including: parent development and support (such as home 
visiting), child care, Head Start, preschool and other related early 
childhood development activities.
    We must recognize the value of engaging the private sector. Public 
funding is vital--it must continue and we need to expand it. But the 
fact is public investment alone has not been enough to reach all of our 
nation's young children and make a lasting difference in their earliest 
years. If we want to ensure our children have every opportunity to 
succeed, we need to establish public-private partnerships and leverage 
resources to begin opening new doors.
    Ultimately, Mr. Chairman, we need to confront the chasm that exists 
between what we know is good for America's children and what we 
actually do as a country to make it happen. We must fashion a public 
policy agenda that focuses on the earliest years of life and increases 
the quality of care for our children.
    Thank you.
                                 ______
                                 
    [The statement of Mr. Kucinich follows:]

  Prepared Statement of Hon. Dennis J. Kucinich, a Representative in 
                    Congress From the State of Ohio

    I would like to thank the Chairman for holding this hearing, and 
for continuing the discussion about the importance of early childhood 
education. Over the last decade, research has repeatedly shown that 
early childhood education has immense benefit for the social and 
emotional development of a child, as well as his or her educational and 
vocational attainment later in life. These individual benefits 
translate to large-scale societal benefits in the form of a healthier 
and better-educated workforce and decreased demand on social service 
networks, just to name a few.
    I am eager to hear the testimony presented today. The Chairman has 
assembled an impressive group with decades of experience and ``practice 
wisdom'' in the early education field. I am confident that today's 
proceedings will bring us significantly closer toward the goal of 
ensuring that every child in America has access to high-quality, full-
day, full-calendar-year prekindergarten education.
    I am excited that this endeavor is well under way in my 
congressional district. Through a year-long planning process, the 
Cuyahoga County Board of County Commissioners developed a universal 
prekindergarten model. The program addresses all the components of 
high-quality early education programming: low child to staff ratios; a 
research-driven, proven curriculum; professional and workforce 
development; wraparound health and social services; family engagement; 
and monitoring and evaluation. I am particularly proud of the fact that 
this program was the product of a process that engaged over 200 
stakeholders, from researchers and policy experts to program managers 
and direct service workers. So often, in our zeal to create effective 
programming, we neglect the bounty of research available in the wisdom 
of front line staff. I firmly believe that any early education endeavor 
must have the input of the direct service staff and others who face the 
lived reality of the programs we offer.
    Thank you again, Chairman, and thank you to our panel, for all of 
your efforts in furtherance of early education. I stand ready and 
willing to do whatever it takes to ensure that every child in America 
has access to high-quality, full-day, full-calendar-year 
prekindergarten education.
                                 ______
                                 
    Mr. McKeon. Thank you very much.
    I am pleased to be here examining early childhood 
education, an issue this committee knows well.
    Last year, we worked together to write and pass a 
bipartisan Head Start reform bill that significantly 
strengthens early childhood education opportunities for 
disadvantaged children. I was extremely proud to be a part of 
crafting that legislation which reaffirmed our commitment to 
target the federal investment in early childhood education to 
serve disadvantaged children, those who are already at risk of 
falling behind even before they enroll in school.
    Research has shown that early childhood education pays 
significant dividends in preparing children for success in 
school and in life. Several studies have shown that children 
enrolled in early childhood education programs enter elementary 
school better prepared than their peers. It is for this reason 
that I am a strong proponent of federal programs, such as the 
Child Care and Development Block Grant, Head Start, Early 
Reading First, and many others which ensure that children are 
ready to learn effectively when they enter kindergarten.
    At the same time, there is much we do not know about the 
long-term effects of early childhood education programs on 
student academic performance and whether these educational 
benefits continue into middle and high school.
    In addition, much more work needs to be done to increase 
coordination of the various federal early childhood education 
programs at the state and local level.
    Before Congress and this committee even consider efforts to 
expand the federal role in early childhood education, I believe 
we need to focus on the following three principles.
    First, any federal program, existing or otherwise, must 
preserve and promote the role of parents to choose an education 
provider. Children enrolled in early childhood education 
programs are benefiting from a diverse group of public and 
private providers.
    The U.S. Department of Health and Human Services, through 
local school districts and private providers, administers the 
Head Start program and ensures that its services are meeting 
the unique needs of disadvantaged children. States have 
established pre-kindergarten programs aligned with their K-12 
systems, and faith-based and private providers offer programs 
tailored towards parents' specific goals.
    This diversity of programs and providers in which parents 
have control over their children's education and choose what 
program works best for them is one of the great strengths of 
our early childhood education system. Because of that 
diversity, we have avoided many of the criticisms of our K-12 
education system.
    Second, the federal investment should be narrowly targeted 
to those students who need it and those parents who can least 
afford it. Before enacting any new or duplicative initiatives, 
we must focus on serving those children not presently being 
served by the Head Start program. Since 1965, our federal 
education programs have been focused on ensuring that low-
income and disadvantaged students and parents have access to 
those programs that will help them succeed in life. I strongly 
believe that any federal childhood education program must 
continue this focus.
    And, third, the federal investment in early childhood 
education must be focused on ensuring that public and private 
providers are running high-quality programs. Over the last few 
months, a number of legislative proposals have been introduced 
that seem to focus on increasing the number of students 
enrolled in federally funded early childhood education 
programs.
    These legislative efforts overlook the fact that the 
percentage of 3-to 5-year-olds in the United States enrolled in 
some kind of early childhood education program has skyrocketed 
over the last decade, even without one-size-fits-all federal 
mandates. They also ignore the tremendous effort of the states 
in taking a leadership role to create and fund early childhood 
education programs.
    From Alabama to Florida to Virginia, states are leading the 
way in increasing access to pre-kindergarten programs. The 
federal role should recognize that fact and focus on ensuring 
the quality of these existing programs so that children are 
ready to learn when they enter kindergarten.
    Five years ago, when we first began the process of 
reforming and strengthening the Head Start program, this 
committee examined a limited proposal to move administration of 
the program to the states in order to better align the federal 
program with what is happening at the state and local level. 
Ultimately, we did not follow that approach, mainly because of 
concerns that doing so would divert federal early childhood 
support to state-based systems focusing on educating children.
    Given those concerns about moving Head Start to a state-
structured system, I think that it is ironic that most of the 
early childhood education initiatives that have been proposed 
would mandate federal services administered by the U.S. 
Department of Education and provided at the state or local 
level. Nonetheless, today's hearing presents us with an 
important opportunity to consider how early childhood education 
helps put children on the path to success.
    I look forward to hearing about the latest research into 
how children learn, and I am pleased to have program providers 
here with us to share their insight and experience with 
successful program operation.
    Once again, I would like to commend the chairman for 
convening this hearing and thank the witnesses for offering 
their considerate expertise.
    Our nation's flexible, dynamic, and diverse system of early 
childhood education providers helps ensure a strong foundation 
for our children's future educational success. I look forward 
to hearing more about that system today.
    Thank you.
    And I yield back.
    [The statement of Mr. McKeon follows:]

     Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior 
              Republican, Committee on Education and Labor

    Good morning and thank you, Chairman Miller. I'm pleased to be here 
examining early childhood education, an issue this committee knows 
well.
    Last year, we worked together to write and pass a bipartisan Head 
Start reform bill that significantly strengthens early childhood 
education opportunities for disadvantaged children.
    I was extremely proud to be a part of crafting that legislation, 
which reaffirmed our commitment to target the federal investment in 
early childhood education to serve disadvantaged children--those who 
are already at risk of falling behind, even before they enroll in 
school.
    Research has shown that early childhood education pays significant 
dividends in preparing children for success in school and in life. 
Several studies have shown that children enrolled in early childhood 
education programs enter elementary school better prepared than their 
peers. It is for this reason that I am a strong proponent of federal 
programs, such as the Child Care and Development Block Grant, Head 
Start, Early Reading First, and many others, which ensure that children 
are ready to learn effectively when they enter kindergarten.
    At the same time, there is much we do not know about the long-term 
effects of early childhood education programs on student academic 
performance and whether these educational benefits continue into middle 
and high school. In addition, much more work needs to be done to 
increase coordination of the various federal early childhood education 
programs at the state and local level.
    Before Congress and this Committee even consider efforts to expand 
the federal role in early childhood education, I believe we need to 
focus on the following three principles.
    First, any federal program, existing or otherwise, must preserve 
and promote the role of parents to choose an education provider. 
Children enrolled in early childhood education programs are benefitting 
from a diverse group of public and private providers. The U.S. 
Department of Health and Human Services, through local school districts 
and private providers, administers the Head Start program and ensures 
that its services are meeting the unique needs of disadvantaged 
children. States have established pre-kindergarten programs, aligned 
with their K-12 systems. And faith-based and private providers offer 
programs tailored toward parents' specific goals. This diversity of 
programs and providers--in which parents have control over their 
children's education and choose what program works best for them--is 
one of the great strengths of our early childhood education system. 
Because of that diversity, we have avoided many of the criticisms of 
our K-12 education system.
    Second, the federal investment should be narrowly targeted to those 
students who need it and those parents who can least afford it. Before 
enacting any new or duplicative initiatives, we must focus on serving 
those children not presently being served by the Head Start program. 
Since 1965, our federal education programs have been focused on 
ensuring that low-income and disadvantaged students and parents have 
access to those programs that will help them succeed in life. I 
strongly believe that any federal early childhood education program 
must continue this focus.
    And, third, the federal investment in early childhood education 
must be focused on ensuring that public and private providers are 
running high-quality programs.
    Over the last few months, a number of legislative proposals have 
been introduced that seem to focus on increasing the number of students 
enrolled in federally-funded early childhood education programs. These 
legislative efforts overlook the fact that the percentage of 3 to 5 
year olds in the United States enrolled in some kind of early childhood 
education program has skyrocketed over the last decade, even without 
one-size-fits-all federal mandates.
    They also ignore the tremendous effort of the states in taking a 
leadership role to create and fund early childhood education programs. 
From Alabama to Florida to Virginia, states are leading the way in 
increasing access to pre-kindergarten programs. The federal role should 
recognize this fact, and focus on ensuring the quality of these 
existing programs so that children are ready to learn when they enter 
kindergarten.
    Five years ago, when we first began the process of reforming and 
strengthening the Head Start program, this Committee examined a limited 
proposal to move administration of the program to the states in order 
to better align the federal program with what is happening at the state 
and local level. Ultimately, we did not follow that approach mainly 
because of concerns that doing so would divert federal early childhood 
support to state-based systems focused on educating children. Given 
those concerns about moving Head Start to a state-structured system, I 
think that it's ironic that most of the early childhood education 
initiatives that have been proposed would mandate federal services 
administered by the U.S. Department of Education and provided at the 
state or local level.
    Nonetheless, today's hearing presents us with an important 
opportunity to consider how early childhood education helps put 
children on the path to success. I look forward to hearing about the 
latest research into how children learn. I am also pleased to have 
program providers here with us to share their insight and experience 
with successful program operation.
    Once again I'd like to commend the Chairman for convening this 
hearing and thank the witnesses for offering their considerable 
expertise. Our nation's flexible, dynamic, and diverse system of early 
childhood education providers helps ensure a strong foundation for our 
children's future educational success. I look forward to hearing more 
about that system today. Thank you, and I yield back.
                                 ______
                                 
    Ms. Hirono. Thank you, Mr. McKeon.
    Now I would like to introduce our panel of witnesses, all 
of whom have very impressive backgrounds. More extensive bios 
will be made part of the record.
    The first witness is Deborah Phillips. Dr. Phillips is 
currently professor of psychology and associated faculty in the 
Public Policy Institute at Georgetown University. She is also 
co-director of the university's research center on children in 
the U.S. Prior to this, she was the first executive director of 
the Board of Children, Youth and Families of the National 
Research Council's Commission on Social and Behavioral Sciences 
and the Institute of Medicine.
    She co-edited ``From Neurons to Neighborhoods: The Science 
of Early Child Development'' and is now a member of two 
organizations that were created to continue the work of 
``Neurons to Neighborhoods,'' the National Scientific Council 
on the Developing Child and the Forum on Early Childhood 
Program Evaluation based at Harvard University. Her research 
focuses on the developmental effects of early childhood 
programs, including both child care and pre-K settings.
    Current studies are focusing on how children who vary in 
temperament are differentially affected by child care 
experiences and on an evaluation of the Tulsa, Oklahoma, pre-K 
program as it affects both cognitive and social-emotional 
development. Dr. Phillips has also served on numerous task 
forces and advisory groups.
    Kathleen Priestly will be introduced by Congressman Payne.
    Mr. Payne?
    Mr. Payne. Thank you very much.
    It is really an honor for me to introduce someone from my 
congressional district, Kathleen Priestly, who is the 
supervisor for early childhood education in Orange, New Jersey.
    As supervisor, Ms. Priestly has the opportunity to 
supervise not only preschool and kindergarten teachers and 
teaching assistants, but also to support a team of early 
childhood master teachers, social workers, nurses, preschool 
intervention specialists, inclusion teachers, and fiscal 
administrative assistants. She also collaborates with 
principals, Head Start, and center directors, and other 
district administrators.
    Prior to her current position, she has worked for the New 
Jersey Department of Education in the Office of Early Childhood 
Education focusing on professional development and technical 
assistance for district administrators expanding preschool 
education throughout New Jersey. Before that, Kathleen was a 
teacher of young children for more than 25 years. After 
graduating from Boston College, she came to New Jersey and 
attended Rutgers University where she pursued her master's and 
other advanced graduate degrees.
    Currently, she is an advocate for early childhood education 
through her work and outside committee and organization work. 
She has been committed to the implementation and expansion of 
preschool education in New Jersey and continues to lead and 
participate in local and national committees and organizations.
    So we are so pleased to have you with us today.
    Thank you.
    Ms. Hirono. Thank you.
    It gives me great pleasure to introduce my friend from 
Hawaii.
    And thank you for this beautiful lei, Elisabeth.
    Elisabeth Chun is the executive director of the Good 
Beginnings Alliance, Hawaii's statewide 501(c)3 intermediary 
organization, legislatively named to spearhead efforts to 
create a coordinated early childhood education and care system. 
Ms. Chun received a BA in history from Carleton College and a 
master's of education in educational psychology with a special 
education focus from the University of Hawaii.
    Prior to joining Good Beginnings in 1997, Ms. Chun was in 
the governor's Office of Children and Youth as a program 
manager for Hawaii's Federal Child Care and Development Block 
Grant. In early 1996, she transferred to the Department of 
Human Services, the new lead agency for the Child Care and 
Development Block Grant, the Child Care Development Fund. From 
1997 to 1998, Ms. Chun served as president of the Junior League 
of Honolulu and was involved in coordinating various volunteer 
efforts centered on positive parenting.
    She currently serves on the Samuel N. and Mary Castle 
Advisory Board as well as the Hawaii Children's Trust Fund 
Advisory Council and the Hookakoo Corporation supporting 
conversions, charter schools, and early education in Hawaii. In 
2007, Ms. Chun was recognized for her work in Hawaii's early 
childhood movement by both the Hawaii Pacific Business News and 
the University of Hawaii College of Education.
    Charles Kolb. Since September 1997, Charles Kolb has served 
as president of the Committee for Economic Development, CED, 
with offices in New York City and Washington, D.C. Prior to 
joining CED, he served as general counsel and secretary of 
United Way of America from 1992 to 1997.
    During nearly 10 years of government service, he held 
several senior-level positions, including high-ranking 
positions with the U.S. Department of Education. Prior to 
government service, Mr. Kolb practiced law at two Washington, 
D.C., law firms, Covington & Burling and Foreman & Dyess.
    He holds an undergraduate degree from Princeton University, 
a master's degree in philosophy, politics, and economics from 
Oxford, and a law degree from the University of Virginia School 
of Law where he was editor-in-chief of the Virginia Journal of 
International Law. He is also the author of a book on 
policymaking in the Bush White House and numerous law review 
and op ed articles.
    Eric Karolak--am I pronouncing your name correctly? 
Karolak--thank you.
    Dr. Karolak directs the efforts of the Early Care and 
Education Consortium, ECEC, an alliance of more than 7,600 
early learning programs providing care and education for nearly 
800,000 children in 49 states and the District of Columbia.
    From 2001 to 2006, Dr. Karolak led the National Childcare 
Information Center, the largest federal clearinghouse and 
technical assistance center, focused on child care and early 
education for low-income families. He has worked closely with 
states developing the technical aspects of child care 
assistance programs, quality rating systems, and partnerships 
across early education programs.
    He has conducted policy research and fiscal analysis in the 
areas of child welfare, child care, and public housing. Dr. 
Karolak also has served on the boards of a national policy 
initiative, a nonprofit child care center, a local government 
agency, and a metropolitan United Way. He is a graduate of the 
Ohio State University.
    Last but not least, Ron Haskins. Dr. Haskins is a senior 
fellow in the economic studies program and co-director of the 
Center on Children and Families at the Brookings Institution 
and is senior consultant at the Annie E. Casey Foundation in 
Baltimore. He is the author of ``Work Over Welfare: The Inside 
Story of the 1996 Welfare Reform Law,'' Brookings, 2006.
    Prior to joining Brookings and Casey, he spent 14 years on 
the staff of the House Ways and Means Human Resources 
Subcommittee, first as welfare counsel to the Republican staff, 
then as the subcommittee staff director. From 1981 to 1985, he 
was a senior researcher at the Frank Porter Graham Child 
Development Center at the University of North Carolina-Chapel 
Hill. He also taught and lectured on history and education at 
UNC-Charlotte and developmental psychology at Duke University.
    Dr. Haskins has edited and co-edited several books and is a 
contributor to numerous books and scholarly journals on 
children's development and social policy issues. He holds a 
bachelor's degree in history, a master's in education, and a 
Ph.D. in developmental psychology from UNC-Chapel Hill.
    Thank you all for being here.
    Before we begin, let me briefly explain our lighting 
system. The light is green when you begin to speak. When you 
see the yellow light, it means that you have 1 minute 
remaining. And when the light turns red, your time has expired, 
and you need to conclude your testimony.
    Please be certain as you testify to turn on and speak into 
the microphone in front of you.
    We will now hear from our first witness, Dr. Phillips.

 STATEMENT OF DEBORAH PHILLIPS, PH.D., PROFESSOR, PSYCHOLOGY, 
                     GEORGETOWN UNIVERSITY

    Ms. Phillips. Thank you very much. Those were wonderful 
supportive opening statements. Thank you so much.
    And I am really delighted to be here this morning to talk 
with you about this topic that I have been studying for 35 
years and is very near and dear to my heart, as well as to 
yours.
    In my written testimony, I have three sections where I talk 
about brain development, trajectories of early achievement, and 
investments that work. But in my spoken comments, I am going to 
really focus on brain development and early education, focusing 
on what we did not know or know very firmly when I last 
testified for you 7 years ago.
    With regard to early brain development, brains are built 
over time, neural circuits are wired in a bottom-up sequence 
with simple circuits and skills providing the scaffolding for 
more advanced circuits and skills, and the capacity for change 
decreases with age.
    From the moment that we are conceived, our brains greedily 
recruit information from their surrounding environment like a 
sponge to shape their underlying architecture and 
neurochemistry. But like a sponge, they are not at all 
discriminating about what they soak up. If what surrounds them 
is toxic--prenatal alcohol exposure, child abuse, maternal 
depression, so on--they will soak this up. If that environment 
is responsive and stimulating, the brain will absorb this. And 
no mistake about it, these two brains will look and respond 
very differently.
    This is not a random process. Brain circuits that process 
basic information, like differentiating the sounds of your 
native language, are wired earlier than those that process more 
complex information like learning to read and to write.
    Once a circuit is up and operating, it participates in the 
construction of later developing circuits. A sturdy early 
foundation leads to a well-functioning efficient brain. A weak 
early foundation leads to a fragile over or underreactive 
neural system.
    The developing chemistry of the brain also matters greatly. 
During the infancy, toddler, and preschool years, the brain's 
stress response system gets calibrated, just like you calibrate 
the thermostat for your home heating system. Under most 
circumstances, these systems learn to ramp up very quickly in 
response to threat and then to ramp back down and return to 
baseline levels of functioning when the threat has passed.
    But under conditions of what we have come to call toxic 
stress, the architecture and chemistry of the developing brain 
are disrupted. Not only does the stress system get activated at 
a lower threshold of stress--in effect, a kitten becomes a 
tiger--but it has a much harder time calming back down to 
baseline levels of functioning.
    What we see in the short term are children who are highly 
reactive to stressful events, who have trouble reading social 
cues, and who interpret social interactions that are otherwise 
innocent, like a bump in the hallway, in suspicious ways, like 
a taunt, and they have substantial learning and memory 
difficulties.
    In the longer term, we see greater susceptibility to 
physical illness and mental health problems.
    This is all quite recent work. What is very new and 
relevant to today's hearing is that child care experiences, 
especially during the toddler years, appear to affect this 
developing stress response system.
    I am going to jump ahead to early investments, in the 
interest of time.
    The question of whether we can intervene successfully to 
foster early learning of both cognitive and social skills has 
been answered in the affirmative and should be put to rest. 
Evidence from the small modeled, tightly controlled Abecedarian 
and preschool programs that I am sure you know well has been 
widely cited. It tells us importantly what is possible.
    But this evidence begs the question of whether and how more 
typical early childhood environments affect important 
developmental outcomes. Can the levers that can reasonably be 
pulled by public policy make a meaningful difference in the 
life chances of young children across the nation? Absolutely. 
This goes to what is feasible and effective.
    Significant variations in the quality of more typical early 
care and education programs have the potential to produce 
lasting repercussions for both children and society as a whole. 
Evidence repeatedly points to beneficial impacts at the highest 
end of the quality spectrum and to detrimental impacts at the 
lowest end.
    Very recent evidence from research on typical child care 
settings has linked the healthy or unhealthy development of the 
stress response system in toddlers and young preschoolers to 
the amount of attention and stimulation they receive from their 
child care provider, to the nature of the peer interactions 
they encounter in child care, and to child-adult ratios.
    Combined with children's extensive exposure to child care 
in the United States, typically starting around 4 months of 
age, developmental and neuroscientists alike approach child 
care as a massive sustained intervention in the lives of young 
children. The U.S. military has figured this out and has 
supported extensive ongoing training and accreditation of all 
of its child care programs as pivotal to military preparedness 
and ensuring a next generation of effective soldiers.
    Pre-kindergarten programs represent another form of 
increasingly typical early childhood education programming. I 
have been involved in a 5-year-long evaluation of the Tulsa 
pre-K program which is universal. Seventy percent of 4-year-
olds in Oklahoma and in Tulsa go to this program. In brief, 
three findings that are important to you, and then I will stop 
if that is all right with you.
    Ms. Hirono. Thank you.
    Ms. Phillips. First, students who participated in this 
Tulsa pre-K program experienced an 8-month gain in their 
letter-word identification scores, an 8-month gain in their 
spelling scores, and a 5-month gain in their applied problems 
or pre-math skills.
    Tulsa public schools contracts with Head Start. Head Start 
has to comply with all of the same quality standards. The 
children in Head Start experience a 5-month gain in prereading, 
a 3-month gain in prewriting, a 5-month gain, just like the 
public school kids, in pre-math. These gains place Tulsa Head 
Start programs on a par with other states' pre-K programs that 
have been evaluated.
    Why? We cannot say for sure, but they all employ BA-level 
early childhood credentialed teachers who are paid the same 
wages as the elementary and secondary teachers in Tulsa.
    [The statement of Dr. Phillips follows:]

Prepared Statement of Deborah A. Phillips, Ph.D., Professor, Department 
                  of Psychology, Georgetown University

    Mr. Chairman and Members of the Committee, I am delighted to be 
here this morning to talk with you about Investing in Early Education: 
Paths to Improving Children's Success. I have had the opportunity to 
testify for you in the past and it's nice to be back. I also had the 
opportunity to help plan the Speaker's Summit on America's Children 
held last May, which addressed many of the issues that are likely to 
arise here today. I am especially encouraged that both the Summit and 
your discussion today start with scientific knowledge as your departure 
point for considering the next policy steps.
    I am a developmental psychologist who has studied the effects of 
early environments on young children for the past 35 years. My central 
focus has been on early educational settings and their effects on 
children's well-being and development, including child care, Head 
Start, and pre-kindergarten programs. Before joining the faculty at 
Georgetown University in September 2000, I spent seven years at the 
National Academy of Sciences, the last three of which were devoted to 
writing the comprehensive report on early development titled, From 
Neurons to Neighborhoods: The Science of Early Childhood Development. I 
am now involved with the follow-on to this work under the banner of the 
National Scientific Council on the Developing Child, which is 
continuously updating the knowledge base and policy recommendations 
that we synthesized in Neurons to Neighborhoods. My remarks today will 
draw heavily upon the work of the Council, as well as upon my own 
NICHD-funded research on child care, longstanding work with Head Start, 
and recent multi-year evaluation of the Tulsa, Oklahoma Pre-K program.
    There has been a virtual explosion of research in neurobiology and 
the behavioral and social sciences that bears directly on this hearing. 
What we now know about the conditions that start children along 
promising or worrisome pathways is leaps and bounds ahead of where we 
were even a decade ago. I will focus my remarks on what is new * * * 
what didn't we know or know firmly when I testified in 2001.
    They are directed to three points: (1) Brain Development: Brains 
soak up the environments around them like a sponge and what they absorb 
makes the difference between a sturdy or fragile foundation for 
subsequent development. What is new is that we now understand, in great 
detail, how this works and what neurological systems and thus which 
aspects of development are most profoundly affected. (2) Trajectories 
of Achievement: Income-linked disparities in what children know and can 
do are clearly evident well before they enter kindergarten and are 
predictive of later school success and life achievements. The evidence 
linking a child's location on the early learning curve to his or her 
trajectory through school and beyond is firmer than ever before, and 
(3) Investing in Early Education: Children's experiences in early 
education settings display astonishing variation with significant 
implications for development. What is new is that we now have 
documented impacts on early brain development and we know more about 
the active ingredients of these experiences.
Early Brain Development
    Brains are built over time, neural circuits are wired in a bottom-
up sequence with simple circuits and skills providing the scaffolding 
for more advanced circuits and skills over time, and the capacity for 
change decreases with age.
    In the first few years of life, our brains are creating 700 new 
synapses every second. Synapses are the life-line of our neural 
systems, supporting communication from one neuron to the next, just 
like phone lines used to connect one home to another. They determine 
which neurons are activated (thus, what our brain knows and can do) and 
how efficiently our brain processes information. From the moment we are 
conceived, our brains--guided by the instructions provided by our 
genes--greedily recruit information from their surrounding environment 
in order to know which synapses to keep and which to discard. The 
synapses that get activated a lot, whether they are those that 
establish a well-working or compromised visual system or that tell us 
to speak English rather than Ukranian or that prime us to be fearful or 
trusting of others, create the underlying architecture of the 
developing brain. Those that don't get used, whither away through a 
process called ``pruning''.
    This is not a random process. Brain circuits that process basic 
information (like the visual and auditory and motor systems) are wired 
earlier than those that process more complex information (like reading 
emotions, or doing algebra, or running a marathon). Once a circuit is 
up and operating, it participates in the construction of later-
developing circuits. The shaping of higher-level circuits thus depends 
on the successful, strong wiring of the lower-level circuits. A sturdy 
early foundation leads to a well-functioning, efficient brain; a weak 
early foundation leads to a fragile, over- or under-reactive neural 
system.
    The developing chemistry of the brain also matters greatly. 
Notably, during the infancy, toddler, and preschool years, the brain's 
stress response system gets calibrated, just like you would calibrate 
the thermostat for your home heating system. In the first five years of 
life, these systems learn to ramp up rapidly in the face of stress, and 
to ramp back down and return to baseline when they have done their job. 
But, under conditions of what we have come to call toxic stress, such 
as child abuse or neglect, severe maternal depression, parental 
substance abuse, or family violence, persistent elevations of stress 
hormones and altered levels of key brain chemical produce an internal 
physiological state that disrupts the architecture and chemistry of the 
developing brain. Not only does the stress system get activated at a 
lower threshold of stress (e.g., a kitten becomes a tiger), but it has 
a much harder time calming down to baseline levels of functioning.
    Over time, associated disruptions of the immune system and 
metabolic regulatory functions lead to a lifetime of greater 
susceptibility to physical illnesses and mental health problems. What 
we see in the short term are children who are highly reactive to 
stressful events (that would not bother other children), who have 
trouble reading social cues and interpret social interactions in 
``suspicious'' ways (e.g., an innocent bump in the hallway becomes a 
taunt), and who have learning and memory difficulties. This is all 
quite recent work. What is very new and relevant to today's hearing is 
that child care experiences, especially during the toddler years, 
appear to affect this developing system.
    Today, we also have a much more nuanced understanding of why early 
experiences hold a special place in the equation of brain and skills 
development:
    1) When neural circuits are first forming, the molecular and 
cellular mechanisms that guide neural plasticity are highly active, 
enabling circuits to undergo substantial changes in architecture, 
chemistry, and gene expression in response to experience. The 
information-processing circuits of our young brains are eager to be 
customized * * * to react to the lessons--both positive and negative--
that early life experiences have to teach.
    2) It is far easier to form a pattern of connections in a neural 
circuit that does not already have an established configuration. When a 
circuit first develops, our genes dictate the blueprint of what goes 
where, but in a relatively imprecise and weak way. It is the brain 
activity set in motion by experience that sharpens and strengthens 
these innate patterns of connection. One these connections stabilize, 
it is more difficult for subsequence experience to change the initial 
formation. Early experience trumps later experience.
    By the same token, skills beget skills. All capabilities are built 
on a foundation of capacities that are developed earlier. It follows 
that:
    <bullet> Early learning confers value on acquired skills, which 
lead to self-reinforcing motivation to learn more.
    <bullet> Early mastery of a range of cognitive, social, and 
emotional competencies makes learning at later ages more efficient and, 
therefore, easier and more likely to continue.
    <bullet> Early intervention, in effect, lowers the cost of later 
investment.
    This is true for the brain and it is true for society. This 
explains both smart rats and the cost-benefit ratios that are linked to 
strong early childhood programs. This is why both neuroscientists and 
economists (and business leaders) have singled out high-quality early 
education as their best bet for an early investment of public dollars.
Trajectories of Achievement
    One of the most significant insights about educational attainment 
in recent years is that educational outcomes in adolescence and young 
adulthood can be traced back to capabilities seen during the preschool 
years and the experiences in and out of the home that foster their 
development. For example, reading scores in 10th grade can be predicted 
with surprising accuracy from knowledge of the alphabet at kindergarten 
entry. Differences in high school completion can be traced back to 
preschool achievement test scores. Children thus embark on successful 
or unsuccessful pathways through school during the preschool years. 
Moving a child who has embarked on a pathway towards failure onto one 
that guides him or her toward success becomes increasingly difficult 
and costly over time.
    By the preschool years, however, the gap in what children living in 
impoverished environments and those who escape these environments know 
and can do has already emerged. Low- and higher-income children are 
already moving along different trajectories well before school entry, 
not because their brains are different or because they have different 
capabilities, but because their early environments in and out of home 
do not constitute a level playing field. This is not new knowledge. 
But, today, we have yet more evidence documenting this troubling fact, 
we have documented specific deficits not only for early literacy 
development, but also for early numeracy development, and there are 
exciting new efforts to develop curricula that address these specific 
deficits in early learning.
    We know, for example, that children living in poverty hear, on 
average, 300 fewer words per hour than do children in professional 
families, and these differences predict 3rd grade vocabulary and 
reading comprehension scores. Children whose mothers have less than a 
high school degree test, on average, at the 38th percentile in 
kindergarten-level letter recognition, while those with college-
educated mothers test at the 69th percentile. Differences in vocabulary 
growth between children in low socio-economic households and high 
socio-economic households begin to appear as early as 18 months, the 
age at which the ``word-learning explosion'' (when children learn, on 
average, 9 words a day) begins.
    Low-income children are also not exposed to the board games and 
other math-related experiences (e.g., Which is bigger? Which pairs of 
socks go together?) that foster early understanding of numerical 
concepts. We see the impact in the fact that low-income 5-6 year olds 
show the same knowledge of numbers as do middle-income 3-4 year olds.
    Exacerbating these trends is the fact that children living in 
poverty who cannot avail themselves of programs such as Head Start are 
in some of the nation's poorest quality child care settings in which 
ample and rich language, let alone counting games, are rare to non-
existent. Children growing up in working poor and modest income 
families, who fall between the cracks of eligibility for programs like 
Head Start and affordability of high-quality child care also experience 
developmentally stunting early childhood settings.
    By age 4 or 5, children all over the world have mastered the 
fundamental grammatical system of their native language, including verb 
declensions, gender agreement, embedded clauses, and the like. They can 
understand other people's points of view, experience emotions that are 
important to the development of conscience (e.g., shame and guilt), and 
can sit quietly with a group of children and pay attention for at least 
brief periods of time. Many preschoolers have also learned amazingly 
sophisticated numerical and scientific concepts, and love the sense of 
discovery that comes from acquiring this knowledge. Having entered the 
crucible of peer groups, on average, by 1\1/2\ to 2 years of age, they 
have also acquired a large repertoire of early social skills * * * or 
deficits. This fact has led experts in the development of aggressive 
behavior and delinquency to refer to early childhood experiences as the 
headwaters of susceptibility to health and mental health problems, 
aggression, and enduring victimization. There is a great deal at stake 
here.
Investing in Early Education
    The question of whether we can intervene successfully to foster 
early learning of both cognitive and social skills has been answered in 
the affirmative and should be put to rest. Evidence from the small, 
tightly-controlled Abecedarian and Perry Preschool programs has been 
widely cited. It tells us, importantly, what is possible. But, this 
evidence begs the question of whether and how more typical early 
childhood environments affect important developmental outcomes. Can the 
levers that can reasonably be pulled by public policy make a meaningful 
difference in the life chances of young children across the nation? 
Absolutely. This goes to what is feasible and effective.
    Significant variations in the quality of more typical early care 
and education programs have the potential to produce lasting 
repercussions for both children and society as a whole. Evidence points 
to beneficial impacts at the highest end of the quality spectrum and to 
detrimental impacts at the lowest end.
    We do, however, have firmer evidence than ever that, for children 
whose life circumstances lead to greater vulnerability, the nature of 
their out-of-home experiences is particularly important and the impacts 
of variation in quality are greater. Combined with children's extensive 
exposure to child care in the U.S. (starting around 4 months of age on 
average) and our growing knowledge of environmental influences on early 
brain development, it is critical to approach child care as a massive, 
sustained intervention in the lives of young children. From the child's 
point of view, child care is no less an early intervention program than 
is the Abecedarian or Perry Preschool program or Head Start program, 
although most child care settings are not designed or funded with this 
in mind.
    For example, from the NICHD Study of Early Child Care, we have 
learned that:
    <bullet> Children in center-based classrooms that were in 
compliance with American Academy of Pediatrics and American Public 
Health Association guidelines for ratios, group size, and caregiver 
training, and whose teachers had a college education performed at age 
level on a school readiness test, while children from classrooms that 
did not meet these guidelines performed 14 percentiles below this 
norm--not an inconsequential gap. This translates into children who 
know substantially more words, who can correctly identify the letters 
of the alphabet, can count and can understand instructions on a par 
with their age group versus children who cannot.
    <bullet> Not only did higher quality child care--defined by the 
more proximal indicator of sensitive and stimulating adult-child 
interaction--predict higher levels of pre-academic skills and language 
performance during the infant, toddler, and preschool years, but in 
third grade, higher quality early childhood care continued to be linked 
to higher scores on standardized tests of math, memory, and vocabulary 
skills and, the effects on vocabulary endured through sixth grade.
    From other child care research, we have recently documented that:
    <bullet> Quality of child care affects the developing stress 
response system. Specifically, during the toddler and young preschool 
years, when the anterior cortical regions of the young brain are 
undergoing rapid development, exposure to long days in child care with 
peers can disrupt normal patterns of cortisol (e.g., a stress hormone) 
metabolism for some children, notably those with more immature social 
skills and those who experience peer rejection. Importantly, these 
effects were reduced for children who received high levels of attention 
and stimulation from their child care providers and who were in 
programs with smaller peer groups and child-adult ratios. We do not yet 
know if these findings have long-term consequences or whether they are 
a blip on the long path to maturity.
    Thus, variation in the quality of typical early child care has 
important and enduring effects on child development. The military has 
figured this out and has supported extensive, on-going training and 
accreditation of all of its child care programs as pivotal to military 
preparedness and ensuring a next generation of effective soldiers.
    Pre-Kindergarten programs represent another form of increasingly 
typical early childhood education programming. I have been involved in 
a 5-year long evaluation of the universal, school-based pre-
kindergarten program in Tulsa, Oklahoma with several colleagues from 
the Georgetown Public Policy Institute (Professors William Gormley, Ted 
Gayer, and Carolyn Hill). Oklahoma has the largest pre-kindergarten 
program in the country, with the highest penetration rates among 4-year 
olds (currently hovering around 70%), and Tulsa is the largest school 
district in Oklahoma. Here are some of our latest findings:
    <bullet> Students who participated in the Tulsa Public Schools 
(TPS) pre-K program in 2005-06 experienced an 8-month gain in their 
letter-word identification scores, an 8-month gain in their spelling 
scores, and a 5-month gain in their applied problems (pre-math) scores, 
relative to students who had not attended the program. This is the 
third time we have found significant gains for pre-K students.
    <bullet> These substantial positive effects characterize Hispanic, 
African American, White, and Native American children. Similarly, we 
are documenting sizeable gains for disadvantaged, near-poor, and 
middle-class children. We have further discovered bigger effects on 
Spanish-speaking Hispanic students (and children who have a Mexican-
born parent) than on English-speaking Hispanic students (and children 
who have a U.S.-born parent).
    <bullet> The Tulsa Head Start program, which contracts with the 
Tulsa Public Schools and must comply with all of their pre-K standards 
(including a BA-level, credentialed classroom teacher whose wage 
matches the TPS wage), is also producing substantial learning gains for 
four-year-olds, though effects are less dramatic than for TPS students. 
For Head Start, pre-reading skills are boosted by 5 months, pre-writing 
skills by 3 months and pre-math skills by 5 months. (Note that our 
research was not designed to make a direct comparison across these two 
programs (e.g., children were not randomly assigned to TPS and Head 
Start classrooms) and it is likely that the populations of children 
served by these two programs differ in meaningful ways.)
    <bullet> Our data also speak to the issue of universal versus 
targeted preschool. Specifically, the presence of middle-class peers 
has positive effects on the cognitive development of disadvantaged 
children. Effects are much more noticeable in half-day classrooms, 
where students are more heterogeneous socio-economically.
    Why do we get these powerful effects, which are surprisingly 
comparable to those found for the Abecedarian and Perry Preschool 
programs? We have begun to address this question and can point to a few 
clues:
    First, the Tulsa pre-K program's classroom quality is superior to 
other school-based pre-kindergarten programs on multiple measures and 
the Tulsa Head Start program's classroom quality is superior to other 
Head Start programs on multiple measures. It is probably not 
coincidental that every pre-K program--whether TPS or Head Start--must 
employ a BA-level teacher with an early childhood credential, sustain a 
classroom size of no more than 20 students, and employ an assistant 
teacher to establish a 1:10 teacher:student ratio. It is a mixed 
delivery system (although the vast share of pre-K classrooms are in the 
public schools), but not with mixed quality standards. Every child is 
guaranteed a floor of quality below which his or her classroom will not 
fall, and it is a relatively high floor.
    Second, Tulsa pre-K teachers (in TPS and Head Start classrooms) are 
paid at the same level, with the same benefits, as elementary school 
teachers in Tulsa, so there is no incentive for the best teachers to 
migrate to elementary classrooms if they don't want to. As in 
elementary education, wages and working conditions affect our ability 
to attract and retain the very best teachers. I strong suggest that 
these incentives be a centerpiece of your policy discussions.
    Third, as we've begun to look at what predicts higher quality 
interactions and more time on instruction in the pre-K classrooms, 
cutting across TPS and Head Start programs, the important elements that 
are emerging are: (a) the teacher's classroom experience, (b) the 
teacher's Grade Point Average in college, (c) and reliance on a 
relatively structured, clearly paced curriculum (perhaps especially for 
children who have not been exposed to early learning opportunities at 
home). As a next step, we will be examining which elements of classroom 
experience and teacher qualifications predict the students' test 
scores.
Conclusions and Implications
    What can we conclude from this work on typical early childhood 
programs about the wisest investments in early education? Neuroscience 
and economic evidence point to investments in high-quality early 
childhood programs as a promising avenue for fostering healthy 
development, a strong start in school, and, ultimately a productive 
citizenry. Developmental and education science point to specific 
avenues for ensuring that these investments fulfill their promise.
    First, what happens inside the classroom door, whether it is called 
child care or Head Start or pre-K, is where the action is. Mixed 
delivery systems are fine, they are the norm, and they offer working 
parents the range of options they need. The challenge is one of 
ensuring equity of access to developmentally-supportive educational and 
social experiences for all children across these systems. This is an 
especially compelling message having just celebrated Martin Luther 
King's birthday. Today, poor children, who are disproportionately 
children of color, are not treated equitably in our early childhood 
system. This involves looking across child care, early education, and 
Head Start legislation to begin the task of ensuring that each strand 
of funding supports the healthy development and early education of 
young children--not in a cookie-cutter way, but to the same extent. In 
this context, the disparity between the 4% set-aside for quality 
improvements in the Child Care and Development Block Grant and the 40% 
set-aside in Head Start is impossible to justify. Young children and 
notably young children's brains are blind to these distinctions. They 
have the same needs whether they walk through a door labeled Head 
Start, Pre-Kindergarten, or Sally's Super child care center or Hannah's 
Happy child care home.
    Second, classrooms that work depend on well-designed curricula 
based on the latest knowledge about how children learn and develop, and 
on a qualified and stable workforce of early childhood teachers who 
know how to bring these curricula to life to foster early learning and 
development. Programs that show promising evidence of success with low-
income preschoolers, in particular, blend age-appropriate content tied 
to what children are ready to learn with forms of instruction that 
transmit this content in ways that excite and motivate young children. 
A curriculum is only worth the paper it is printed on unless it 
penetrates the classroom and affects the quality of teaching that 
children receive every day. National concern has galvanized around 
teacher shortages, large class sizes, and poor teaching quality at the 
elementary level. Comparable concerns need to be directed at the 
preschool level.
    Third, teaching quality depends on the teacher and his or her 
working conditions. This is precisely why we require elementary school 
teachers to have Bachelor's degrees, specialized training, and a 
teaching credential. Yet, the vast majority of preschool children are 
in programs and settings with adults who have little more than a high 
school education and a fingerprint that clears them of a criminal 
record. You have addressed this in the Head Start program and I applaud 
your efforts. While there is no magic in a B.A. or a credential, they 
do increase the odds that children in Head Start will be exposed to the 
kinds of early learning environments that will get them ready for both 
the cognitive and behavioral demands of school. But, there is large 
variation among teachers with all of these qualification and so the 
next step is to ensure that the best teachers who want to teach young 
children are drawn into and retained in early child classrooms. As 
Oklahoma discovered, this involves minimizing the separation between 
preschool and elementary education policies, perhaps especially with 
regard to wages, benefits, and working conditions. I hope you will keep 
this in mind as you embark on re-authorizing No Child Left Behind. You 
have a rare opportunity, in this legislation, to support state efforts 
and research aimed at building effective early childhood programs and 
to ensure that these mostly-fledgling programs, like the brain, are 
built on a sturdy--rather than a fragile--foundation of effective and 
committed teachers, age-appropriate instruction that instills knowledge 
and excitement in young children, and equity of access to these 
opportunities.
    Thank you very much for this opportunity to testify. I'd be happy 
to answer any questions today and in the crucial months that lie ahead.
                                 ______
                                 
    [Additional submission from Dr. Phillips follows:]

                                                  January 30, 2008.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman Miller: I am writing to clarify comments I made at 
the hearing on Investing in Early Education: Paths to Improving 
Children's Success regarding financing for early education. In response 
to a question, I noted that we are spending billions of dollars on 
child care and early education in this country ($24.8 billion of 
federal and state dollars according to the testimony provided by Dr. 
Haskins--and this does not include the Dependent Care Tax Credit or 
Dependent Care Assistance Plans) and posed a hypothetical question 
regarding the return on investment these dollars are reaping. In this 
context, I noted that ``* * * the challenge is not spending more money; 
it is spending what we have wisely.''
    To clarify, this statement expresses my concern about existing 
federal and state early childhood programs that all too often do not 
put children first; that do not invest in early education in ways that 
have been proven repeatedly to foster early learning and development. 
Consider the Child Care and Development Block Grant that requires only 
that funded providers have a fingerprint that clears them of a criminal 
record. This stands in start contrast to the Head Start program, in 
which your reauthorizing legislation supports enhanced teacher 
education, training, compensation, and career ladders.
    These disparities fly in the face of what we now know about both 
early brain development and the ingredients of early education programs 
that promote school readiness, as described in my testimony. This is 
the context in which I expressed my concern about adding funding to 
these programs as presently configured, rather than using what we are 
spending to ensure that all children receive developmentally 
beneficial, effective care and education, whether funded via the CCDBG 
or Head Start or any other public ``early education'' program. From the 
child's standpoint, the funding stream is irrelevant. What matters is 
what happens once he or she walks through the door. This mirrors the 
recommendation made in Neurons to Neighborhoods regarding child care 
and early education, which involved ``reviewing the entire portfolio of 
public investments in child care and early education'' to ``ensure the 
following priorities: (a) that young children's needs are met through 
sustained relationships with qualified caregivers, (b) that the special 
needs of children with developmental disabilities or chronic health 
conditions are addressed, and (c) that the settings in which children 
spent their time are safe, stimulating, and compatible with the values 
and priorities of their families.''
    There is no question that your goal of supporting the kinds of 
preschool education that will ensure that all children are ready for 
school will require an infusion of new funding. The Committee on 
Economic Development has estimated that full-day, full-year universal 
high-quality preschool (not including infants and toddlers) will 
require $38.7 billion in new funding (Committee on Economic 
Development, 2006). I cannot imagine a more credible estimate of 
necessary new funding. And, I cannot imagine a more proven, cost-
effective vehicle for ensuring that young children receive a solid 
foundation for early learning, a firm hand hold toward this nation's 
promise of equal opportunity, and the start they need to help America 
compete in a global market as they grow up.
    I am very grateful to have had this opportunity to testify before 
you. I would be happy to address any questions you have as you continue 
the remarkably important work of the Committee.
            Sincerely yours,
                                Deborah A. Phillips, Ph.D.,
  Professor of Psychology and Public Policy, Georgetown University.
                                 ______
                                 
    Ms. Hirono. Thank you.
    Ms. Priestly?

 STATEMENT OF KATHLEEN PRIESTLY, EARLY EDUCATION COORDINATOR, 
                  ORANGE CITY SCHOOL DISTRICT

    Ms. Priestly. Thank you, Ms. Hirono and members of the 
committee.
    I am proud to represent the New Jersey educators who have 
passionately worked for universal access to high-quality 
preschool education programs. As we have all said, we know that 
children who attend preschool education programs that meet high 
standards will experience greater success in elementary school 
and well beyond.
    In my 30 years of work as a teacher of young children in 
general and special education, as a staff developer, and in my 
work at the Office of Early Childhood Education, my primary 
responsibilities there included the coordination and delivery 
of professional development for preschool teacher leaders, 
which had a big impact on all of our children, and I also 
provided implementation support to local district 
professionals.
    I experienced the growing pains of our preschool movement 
from all angles, but I truly have seen the remarkable benefits 
from high-quality preschool. The 33,000 residents in my 
district include 75 percent African-American children, 13 
percent white, and 12 percent Hispanic, the vast majority from 
low-income families. I oversee the education of 765 3-and 4-
year-olds in multiage inclusive classrooms at 10 different 
sites.
    The Orange Board of Education offers preschool education 
through a mixed delivery system that includes classrooms in 
public school buildings, at Head Start facilities, and private 
child care centers. We contract with Head Start and child care 
providers partly because of space constraints, but more 
importantly because we appreciated the experience of the 
existing local Head Start and child care providers. Our 
district applies the same high standards to classrooms at all 
of these sites.
    Preschool education in Orange is now looked upon as part of 
a continuum of early childhood education, preschool to grade 3, 
and part of the larger whole school reform plan for preschool 
to grade 12.
    Since the initiatives have been put into place, Orange has 
experienced remarkable growth and achievement. Five years ago 
in 2002, only 55 percent of our fourth-graders scored 
proficient on New Jersey's state test of literacy. Now, in 
2007, 83 percent scored proficient, a 50 percent increase 
overall. Similarly, in math in 2002, 37 percent were 
proficient, while in 2007, this increased to 86 percent, a 70 
percent increase.
    This improvement in test scores corresponds to improvements 
in access and quality of preschool education for our children. 
These scores are comparable to districts throughout the state, 
many serving more advantaged families and some right in our 
neighboring communities.
    In addition to the evidence of this progress, we have 
results of a statewide evaluation on the effects of providing 
increased access to high-quality preschool and children's 
achievement in kindergarten and first grade in districts 
similar to ours across New Jersey. The National Institute for 
Early Education Research at Rutgers University has found that 
the pre-K group made substantially larger gains in language, 
literacy, and math than did children who did not attend pre-K, 
and gains from 2 years of pre-K beginning at age 3 were nearly 
double for language and 70 percent larger for math.
    In addition, parents tell me stories regularly about what 
their children have learned, and kindergarten teachers and 
principals marvel at the difference between the children who 
have attended and those who have not.
    But how are we achieving these results? Recently, on visits 
to some of my preschool classrooms, I was extremely proud to 
see children engaged with materials and interacting with their 
peers in well-organized learning environments. I saw teachers 
supporting and stimulating children throughout their group 
times and individual work.
    The children were learning about the physical properties of 
liquids and solids, talking about sounds that were in the 
nursery rhyme they read, graphing how many children were in 
class and how many were absent, discussing how many blocks they 
would need to carry out their plan to build a castle, and 
signing in to work at the computer.
    This learning went way beyond the traditional academics and 
included learning to think ahead, negotiate play with others, 
take turns, and solve conflicts with the help of their 
teachers.
    We did not achieve this, though, without some critical 
components, the most important of which is that the child comes 
first in every decision. Our preschool teachers are college 
educated and hold state licenses in early childhood education, 
and they receive the same pay as any public school teacher, 
regardless of where they work. They understand child 
development and the components of high-quality preschool 
education.
    We implement a comprehensive research-based curriculum that 
emphasizes teaching to the whole child--cognitive, social, 
physical, and emotional. We have small class sizes of 15 with a 
teacher and an assistant. We provide mentoring to new teachers 
to support their success as they learn to individualize 
strategies to maximize children's learning. We involve parents 
and help parents receive social services when needed.
    We engage in systematic planning and evaluation at every 
level--the child, the classroom, the center, the district, and 
the state--to strengthen what works best and improve what did 
not. In addition to adequate financial support from the state, 
we benefit from regular implementation support from the 
Department of Education both of which are crucial to our 
success.
    Given the clear and impressive success of this and other 
preschools throughout the nation, I would recommend that NCLB 
reauthorization recognize the benefits of a high-quality 
education for young children and include a preschool education 
component.
    Further, I recommend that the committee immediately take 
steps to help states increase preschool education access and 
quality.
    I applaud all three pieces of legislation currently being 
considered for their strong provisions to help states implement 
high-quality programs and their rigorous attention to the 
elements that make these programs so beneficial for young 
children. Pre-K legislation would mark a major accomplishment 
for this committee as states across the country struggle to 
raise or maintain the quality of their programs in spite of 
impending deficits and as several governors have put their 
administrations on the line on behalf of pre-K.
    This investment can literally change children's lives. I 
have spent my entire career in the field of early childhood 
education, and I cannot think of any other better use of our 
tax dollars.
    Thank you.
    [The statement of Ms. Priestly follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                                ------                                

    Ms. Hirono. Thank you.
    Ms. Chun?

     STATEMENT OF ELISABETH CHUN, EXECUTIVE DIRECTOR, GOOD 
                      BEGINNINGS ALLIANCE

    Ms. Chun. Aloha. It is a pleasure and an honor to be here 
today to present to this committee on the importance of early 
education. I will give Hawaii's perspective on an issue, and I 
come with a strong belief that there is a great potential for 
our nation when we focus our resources on our youngest 
children.
    The Good Beginnings Alliance was created in 1997 to provide 
leadership in our state and our communities around early 
childhood education because we believe we need to have an 
integrated early childhood system, first to five, that supports 
parent choice and also supports quality early education 
programs from family child care, from center-based, and on to 
something called family-child interaction, which happens in our 
communities where parents come with their children and learn at 
the same time.
    I was just on the Island of Kona last weekend, and I was 
driving down to a beach community where there, I could see, 
were no preschools, and I was wondering what happens to the 
young children in these communities before they come to 
kindergarten, and as I was leaving that road, I looked up and 
there was a sign that said, ``Come register for Keiki Steps.'' 
That is one of our major programs that invites parents of young 
children to come with a quality early education educator to 
learn how they can best support their children's learning. This 
is what this is all about.
    As states strive to implement quality early education 
programs, the results of this investment are apparent, but few 
states and communities have the resources necessary to deliver 
high-quality programs. They need support to increase the 
quality of programs as well as making programs affordable to 
our families.
    Right now, I would like to encourage and support and thank 
Congresswoman Hirono for the Pre-K Now Act, which provides 
incentives for states to ensure that, as they rush to increase 
capacity, they also address the quality of early childhood 
programs.
    We also know that states face specific challenges in 
developing early childhood educators. We have a lack of early 
childhood teachers, and we are very pleased at the recent loan 
forgiveness fund for early educators, and we encourage them 
also to focus on expanding access to early childhood courses.
    From the Hawaii perspective again, we have been a leader in 
early education. In 1943, we were among the first states to 
implement statewide public free kindergarten for all 5-year-old 
children. That came with the acknowledgement that education 
must begin early and that our economy depended upon a strong 
future workforce, and our current workforce depended upon 
families who knew that their children were in strong early 
learning environments while they were working.
    We are now grappling with how do we support children under 
the age of 5. Forty percent of our current families with young 
children cannot afford preschool attendance, and we know that 
those programs that receive federal and state subsidies now 
have long waiting lists. If our families are to work and to 
support their families, they need safe, quality places for 
their children in order to make sure that they lift themselves 
out of poverty.
    We are also so concerned about Gap Group families, those 
families which do not qualify for early education programs with 
federal or state subsidies, but yet cannot afford preschool 
tuition. They often have to make choices of programs that are 
not always stable or in places that are not stable and of 
unknown quality.
    We have made progress in Hawaii. In 2001, the Pre Plus 
program, which was envisioned by our then Lieutenant Governor 
Mazie Hirono, implemented state-funded preschool facilities on 
elementary school campuses. This program, now known as Pre 
Plus, built 16 programs on elementary school sites. This is a 
public-private partnership; private programs run the programs 
that are located on elementary schools. Over 300 children are 
now served by these programs.
    We know more investment is needed. In my testimony, you 
will see that in our outlying areas especially, over half the 
children of low-income do not have access to programs, and if 
we would develop those programs, we do not have capacity yet to 
fund places for those children.
    We also know, as we are developing right now our Keiki 
First Early Childhood Program, that when we look to expand our 
early childhood programs, we need more teachers. If we are to 
serve 80 percent of our 4-year-old children, we know we need to 
double our current workforce. We need 370 new early education 
teachers, and 310 of our existing teachers will require more 
education, and 200 need to go from an associate's degree to a 
bachelor's degree.
    So I will end where I began, in that we do need federal 
support for early education in our state. We need to help our 
teachers maintain scholarships and loan forgiveness. We need to 
help our universities create incentives for early education 
programs, and we need to help our early education programs 
maintain quality.
    Our Keiki First program estimates that $170 million will be 
needed annually in order to support a 4-year-old program. That 
is for direct services and other programs. I urge you to 
consider your ability to support the state's expansion of 
quality.
    Thank you.
    [The statement of Ms. Chun follows:]

 Prepared Statement of Elisabeth Chun, Executive Director, Hawaii Good 
                          Beginnings Alliance

    As Executive Director of Hawaii's Good Beginnings Alliance I am 
honored to present testimony as to the importance of investing in early 
education as a critical path to improving children's success. I bring 
Hawaii's perspective on this issue and a strong belief that there is a 
great potential benefit to our nation when we focus our resources on 
children.
    The Good Beginnings Alliance (GBA) is a statewide, non-profit, 
community organization created in 1997 by the Hawaii State Legislature 
(Act 77) to provide state and community leadership for the development 
of an integrated early childhood system in Hawaii.
    Since 1997, Good Beginnings Alliance as Hawaii's designated early 
childhood intermediary organization has followed its mission to ensure 
that all of Hawaii's children are safe, healthy and ready to succeed by 
shaping public will and public policy; mobilizing action; and 
maximizing resources. Our goal is to improve results for young children 
birth through the first eight years of life--the most critical time of 
a child's life.
    GBA as an organization has 14-member Board of Directors 
representing each county (Big Island, Kauai, Maui, and Oahu), business, 
philanthropy, early childhood and early care (ECEC) professionals, 
consumer of ECEC services, health, resource and referrals, the 
University of Hawaii, early intervention, Head Start, and the 
Interdepartmental Council.
    The board's composition encourages a public-private partnership in 
order to collaborate and pool local resources to meet defined needs. 
The partnership works together to support local community planning 
efforts, develop policy, build a sustainable resource base, coordinate 
the early childhood education system, and advocate for comprehensive 
services for children and families.
Why Quality is Important
    Brain research now tells us that children begin their learning even 
before they are born and that nearly 85% of a child's intellect, 
personality and social skills are developed by the time a child is five 
years of age.
    It is evident that by age six years there are large and preventable 
gaps between the development and academic abilities of high and low 
income children. Research has shown that high quality early childhood 
education programs make a difference in the educational, social, 
emotional, and physical outcomes, especially for high-risk, low-income 
children. As researchers and noted economics have demonstrated, 
investing in our youngest children's quality early experiences has 
short and long term savings for us as a society.
    As more states strive to implement quality early learning programs, 
the results of this investment are apparent. High quality child care, 
Head Start and Early Head Start, and other early childhood learning 
experiences exist, but few states and communities have a large supply 
of high quality programs because resources remain hugely inadequate 
both for quality of the program and to keep programs affordable for 
families.
    What do we mean by quality? There is no single component, just as 
children do not develop in silos of cognitive, social, emotional and 
physical development. What we do know from research on programs such as 
the child care in Abecedarian, the preschool programs of High Scope, 
and high quality state prekindergarten programs is that there must be 
in place standards for programs, such as accreditation and Head Start 
program performance standards, and standards for children's learning 
and development, such as state early learning standards and the Head 
Start Child Outcomes Framework, the model for many states' standards. 
Specifically in a program we know there must be:
    <bullet> Teachers with education, including ongoing professional 
development, that allows them to select and use appropriate curriculum 
to individualize instruction to support children meeting the state's 
early learning standards and to support children's social and emotional 
development;
    <bullet> Learning environments with appropriate teacher-child 
ratios and groups size, health and safety conditions met, and 
developmentally appropriate materials for important play and 
instruction; and
    <bullet> For those children who need more services, the 
availability and collaboration with health, social services, and other 
supports for them and their families;
    We also know from the research of programs that had long-term 
outcomes for the participating children that quality does not come 
cheaply, regardless of the setting of the program. If we care enough to 
invest in the education of our young children it will make a life-long 
difference for them and for all of us.
Critical Role of Federal Support
    The federal investment in early childhood education is critical. 
The federal Child Care & Development Block Grant provides most of the 
funding for child care assistance as well as quality initiatives for 
all programs regardless of the family's income, such as licensing, 
professional development and education scholarships, and resource and 
referral. Head Start and Early Head Start are key programs in our 
states, and yet many eligible children are unable to attend for lack of 
funding. Special education for infants, toddlers and preschoolers has 
had its funding cut at the federal level. These programs provide the 
foundation for early childhood education in Hawaii as in every state, 
and yet none have had a significant increase in funds for six years. 
Given what we know from the research on the value of the investment in 
high quality early childhood programs, they should be made Congress' 
first priority for increased investment starting now.
    While increased federal funding is a top priority, I know that this 
is not the appropriations committee. It is also important to look for 
new ways to encourage states to focus on quality. This is especially 
crucial right now, as state policy makers are feeling political 
pressure to serve more children. Legislation such as Congresswoman 
Hirono's PRE-K Act would provide incentives for states to ensure that 
as they rush to expand capacity, they do not do it at the expense of 
quality.
    One of the specific challenges states are facing around the country 
(including Hawaii) is a lack of qualified early education teachers. I 
am encouraged by the actions this Committee has already taken this year 
to provide loan forgiveness for early educators, and encourage you to 
continue to focus on increasing access to training in the field of 
Early Childhood Education.
Hawaii's Progress and Challenges
    I'd like to take a moment now to talk from a state perspective. 
Hawaii was an early leader in the promotion of early education. Led by 
advocacy from our philanthropic leaders, Hawaii in 1943 was one of the 
first states to implement a full day public kindergarten program for 
all five year old children. This action was prompted by the 
acknowledgement that children's educational journey must begin early 
and that our Hawaii economy depended upon an educated future workforce 
and a current workforce that could be confident that its youngest 
children were in the best nurturing environment while the parents 
worked.
    Today we, like many states, are grappling with how to best serve 
our children in the years before kindergarten. Almost 40% of our young 
children live in families who cannot afford to send their children to 
early education programs. The early childhood programs that do receive 
federal and state subsidies--such as Head Start--are filled to capacity 
and have waiting lists. This is troubling because low-income families 
require this support for their youngest children if they are to seek 
employment and lift themselves out of poverty.
    We also recognize an increase in the number of ``gap group'' 
families. These parents earn too much to qualify for federal or state 
need-based subsidies or programs such as Head Start, and yet do not 
earn enough to pay for preschool tuition. Their choices of placements 
for young children are limited, often not stable, and of unknown 
quality.
    We have made some progress in increasing capacity. The 2001 
Legislature with the support of then Lieutenant Governor Mazie Hirono 
allocated $5 million dollars for the biennium to build preschool 
facilities on elementary school campuses. This program known as Pre 
Plus is now a very successful public/private partnership. Private 
agencies are contracted to operate the preschool programs on public 
school land. PrePlus resulted in the construction of 16 new preschool 
sites allowing over 300 preschool children to be served.
    Hawaii is also envisioning its four year old program to be 
available in three different types of settings: center-based preschool; 
family child care; and family child interaction learning programs in 
which the adult caregiver remains with the child and also receives 
education as how best to support the child's learning.
    But even with the three options, more investment is needed if we 
are to accommodate the growing demand for early education. We must 
increase the capacity of the current system to address the expanded 
need for early education programs, as the graphs attached show. One 
illustrates the number of low-income four year olds now receiving 
subsidized preschool or tuition payments as well as the estimated 
percentage of four year olds that could be served in 2009 given 
Hawaii's current capacity by school district. Both of these graphs 
demonstrate the lack of enrollment for our low-income children as well 
as the lack of capacity to increase enrollment.
    Of course, preschool is about more than just providing a safe place 
for children while parents work. In Hawaii, as in states across the 
country, we are constantly struggling to improve academic achievement. 
We know that young children are entering kindergarten not prepared for 
success in school. The 2007 Hawai'i State School Readiness Assessment 
report reflects that only one out of every five children entering 
kindergarten classes possessed adequate early literacy skills. And, in 
70% of these classes the majority of entering kindergarteners did not 
possess skills in critical pre-math concepts.
    While 61% of entering kindergarten children attended some preschool 
or formal early learning experiences before kindergarten, a significant 
percentage of children had no such experience. In Hawaii, we estimate 
that 5,530 four year old children are currently not being served in any 
type of program.
    Even for those children lucky enough to attend preschool, the 
quality of their early education programs is not even. In Hawaii we 
estimate that 6950 children are currently in programs that need quality 
improvements to instruction and program. Approximately 22% of our 
preschool programs are nationally accredited mostly by the National 
Association for the Education of Young Children. Hawaii has been 
fortunate to have an ongoing mentoring program for early childhood 
programs seeking National Association for the Education of Young 
Children accreditation. However, Hawaii needs new investment to 
encourage programs to seek such accreditation and to gradually address 
program improvements leading to higher quality.
    Hawaii, like other states, recognizes that we need early childhood 
teachers who are well-prepared and qualified to teach and inspire 
others to follow their path. I do not want to imply that we have not 
made progress in this area--we have. But there is still substantial 
room for improvement. In order to deliver quality early education 
services to the over 83,000 children under six years of age in Hawaii, 
our current teacher resources are woefully lacking. .
    In order for Hawaii to serve 80% of its four year old children in 
an early education experience with a teacher who has a bachelor's 
degree and training in early education, 370 new early education 
teachers need to be recruited and trained with an additional 470 new 
recruits for associate teachers. Furthermore, 310 of our existing 
teachers will require more early childhood education courses, and 200 
existing teachers will need to attain a bachelor's degree. These 
numbers may sound small to those of you from larger states, but 
consider this: we essentially need to double our early childhood 
educator workforce immediately if we are to provide universal, 
voluntary four year old program.
    This brings me back to where I began my testimony: the need for new 
federal support. Our teachers will need scholarships and loan 
forgiveness. Our public universities will need incentives to provide 
expanded access to early childhood education courses. Our early 
childhood programs will need quality improvement funding.
    Hawaii's early learning community, plus business and state and 
county departments have come together in a legislatively created Early 
Learning Task Force to describe the needs and recommend solutions for 
Hawaii's early education system. This Task Force's plan ``Keiki First'' 
estimates that Hawaii will need $170 million annually to deliver a 
quality early learning program to approximately 12,640 four year olds. 
This figure includes funds for direct services, infrastructure, and 
capitol investment for facilities. Every state is working to make these 
large scale investments--some are further along than others--but as 
we--the advocates--push the states to fund these crucial programs, we 
need federal support as well.
    Our children, and ultimately our communities and our country, will 
benefit greatly from a visionary and holistic approach to expanded 
federal support for quality early education.
    Thank you for this opportunity to testify, and I look forward to 
answering any questions you might have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Ms. Hirono. Thank you.
    Mr. Kolb?

  STATEMENT OF CHARLES KOLB, PRESIDENT, COMMITTEE ON ECONOMIC 
                          DEVELOPMENT

    Mr. Kolb. Thank you very much, Madam Chairman.
    I would like to thank you and the fellow members of your 
committee for focusing on the importance of early education.
    ` First, a little bit about the Committee for Economic 
Development. We are a business-led public policy organization 
with over 200 senior business leaders from across the country 
and about 25 university presidents who make up our board of 
trustees, and it is our trustees who decide to get engaged in 
issues, such as campaign finance reform, health care, 
globalization and trade and, of course, education, which has 
been one of our major projects really for much of our now 66-
year history.
    Some of you will remember that in 1989, the first President 
Bush convened a summit in Charlottesville with just about all 
of the nation's governors, and out of that Charlottesville 
education summit, with bipartisan leadership from then Governor 
Bill Clinton, Governor Roy Romer, and others, came a series of 
six national education goals, and these arose in the first Bush 
administration, and they were continued through the entire 
Clinton administration, and one of those goals--I believe the 
first goal--was that, by the year 2000, all of our children--
not some, but all of our children--would arrive at school ready 
to learn. It did not happen. You have to ask yourself why it 
did not happen.
    Well, when CED 6 years ago went into the issue of early 
education reform, we began with that question, why didn't it 
happen and what would it take to make it happen, and beginning 
in 2002, we produced two reports.
    The first was called ``Preschool for All: Investing in a 
Productive and Just Society,'' and I believe that the day we 
released this report, we came up to the Congress and met with 
Senator Kennedy and also with Congressman Castle to talk about 
the importance of investing in early education.
    In 2006, we released our second report, ``The Economic 
Promise of Investing in High-Quality Preschool.'' Now we are a 
business group, and we chose that word ``investing'' for a 
reason, because business leaders understand that if you make 
the right investments at the front end, you tend to get better 
results in the future. Or to put it differently, a business 
leader who has a problem with his or her product or service 
does not fix it at the end, does not fix it in the middle. They 
fix it up front, and there is a reason for doing that.
    We have tried over the last several years to explain, 
really to explore deeply, the issue of the economic returns to 
these front-end investments in early education. Now, you know, 
we often like to tease the French for a variety of reasons--and 
they are teasable--but they get it right. If you look at how 
France as a country invests in early education, they get it 
right. The British get it right.
    But when you look at where the United States of America, 
the richest country ever in the history of the world, if you 
look at where we stand in the OECD rankings, we are not first. 
We are not fifth. We are not 10th. We are near the bottom. Why 
is that? You get out what you put in.
    And so our effort over the last several years has really 
been to try and influence the debate so that more and more 
people in this country, including leaders in the Congress, will 
focus on the importance of these front-end investments.
    We have a problem in this country when it comes to making 
investment decisions. We have triple deficits, trade, budget, 
savings. We do not invest enough in our infrastructure. We do 
not invest enough in foreign languages. Oddly, we overinvest 
when it comes to caloric consumption. That is why we have an 
obesity epidemic.
    But we do not seem to be able to get these investment 
issues right from the start, and I would hope that one of the 
things that your committee can do--and your fellow colleagues 
in the country--is to demonstrate the leadership that we need 
to make these investments in early education a national 
priority. In my view, if you want the No Child Left Behind Act 
to succeed, whatever you think of it, if you want it to 
succeed, it is not going to get there unless you get it right 
up front. I mean, when you go to test the fourth-graders and 
the eighth-graders, if these young people have not gotten what 
they need up front, you are not going to be getting 100 percent 
proficiency.
    So let me conclude by asking you to help this country make 
early childhood education the number one domestic priority. 
Investing in our children is not only the right thing to do, it 
is investing in our future and it is investing in our 
democracy. CED, as a group of business and academic leaders, is 
ready to help.
    Thank you very much.
    [The statement of Mr. Kolb follows:]

   Prepared Statement of Charles E.M. Kolb, President, Committee for 
                          Economic Development

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to present the views of the Committee for Economic 
Development on the importance of early education to ensure our 
country's economic competitiveness and growth.
    CED was founded in 1942 by a group of business leaders and 
university presidents who were deeply concerned about the postwar 
economy. Our founding Trustees were worried about the ability of the 
U.S. economy to evolve from a wartime to a peacetime footing without 
experiencing another major recession or depression. They were also 
concerned about the strength of various postwar international 
institutions and began galvanizing business community support for what 
became the Bretton Woods System, the International Monetary Fund, the 
World Bank, and the Marshall Plan. One of our founders, Paul Hoffman, 
then the CEO of Studebaker, was asked by President Truman to serve as 
the first Marshall Plan administrator.
    For more than 65 years, CED has been an important voice in the 
American business community in supporting sound economic and fiscal 
policy. We now have some 200 Trustees--Democrats, Republicans, and 
Independents--on our board. Most of them are senior corporate 
executives and presidents of some of this country's greatest colleges 
and universities. Our policy work, which ranges from campaign finance 
reform, health care reform, and education reform to global trade and 
macroeconomic policy, is strictly nonpartisan. We begin each of our 
projects with no ideological axe to grind and no political leanings. 
Each year our Trustees decide the issues we study, and it is the CED 
Trustees who actually determine our findings and recommendations.
    Our mission has been to propose policies that ensure steady 
economic growth at high employment and reasonably stable prices, 
increased productivity and living standards, greater and more equal 
opportunity for every citizen and an improved quality of life for all. 
In short, I think of CED as representing the best of business thinking 
in the nation's interest.
    It was with that background that CED trustees have addressed the 
issue of early childhood care and education. Since the 2002 release of 
our groundbreaking early education report, Preschool for All: Investing 
in a Productive and Just Society, CED has been engaged in a national 
campaign to build momentum surrounding investments in early education. 
The Committee for Economic Development followed that report with 
several issue briefs and the 2006 policy statement, The Economic 
Promise of Investing in High-Quality Preschool.
    Early learning programs have long prepared children for early 
educational success, but investing in high-quality early education also 
offers promising ways to strengthen the future economic and fiscal 
position of states and the nation. High-quality early education 
programs have long-lasting effects, improving students' outcomes well 
into their adolescent and adult years. Economically, the long-term 
impacts of high-quality early learning programs translate into 
significant public and private benefits, with returns far exceeding the 
costs.
    Today's business leaders appreciate that early childhood education 
is important to future U.S. economic competitiveness and a worthwhile 
investment. A December 2005 poll of business leaders shows that more 
than 80 percent agree that public funding of voluntary prekindergarten 
programs for all children would improve America's workforce. Business 
leaders see these programs as investments in human capital formation, 
and CED has been working with economists and others to quantify the 
solid economic returns associated with early care and education.
    Access to early education, however remains limited and uneven. 
Because the United States still views financing the care and education 
of young children as primarily a family responsibility, many children 
do not have early learning opportunities available to them. Children of 
higher-income and better-educated parents are the most likely to have 
the advantage of formal early education.
    Investing in children early is crucial. Learning is cumulative, and 
children develop skills during their early years that facilitate later 
learning. Currently, America is spending billions of its education 
dollars on remedial efforts. Gaps in student ability are already 
apparent by kindergarten, and those gaps are often difficult and costly 
to correct later. When a business has a problem, it tries to fix it at 
the front end, not at the back. Moreover, to guarantee positive 
outcomes--such as the success of the No Child Left Behind Act--America 
must work harder to educate our youngest citizens.
    Children who participate in high-quality early education programs 
demonstrate higher academic achievement, are less likely to repeat a 
grade or require special education classes, and are more likely to 
graduate from high school and enroll in college. Students are also less 
likely to participate in criminal activity during their juvenile or 
adult years, or be victims of child maltreatment or neglect. Adults who 
have had the benefit of an early learning opportunity are also less 
likely to be unemployed and more likely to have higher earnings than 
similar students who do not participate in these programs. These adults 
are also less likely to depend on public assistance, become teenage 
parents, or endanger their health by smoking.
    The positive impact of early education programs on students' lives 
increases the likelihood that these students will become net economic 
and social contributors to society. Implementing preschool programs for 
all students whose parents want them to attend is expected to generate 
significant public and private benefits, producing $2 to $4 in net 
present-value benefits for every dollar invested. Federal, state, and 
local budgets will improve significantly when governments can dedicate 
more resources to productive endeavors, rather than to remediation, 
incarceration, and welfare. For every preschool dollar spent, states 
are projected to recoup 50 to 85 cents in reduced crime costs and 36 to 
77 cents in school savings.
    Sustained investments in early education are also a cost-effective 
way to improve long-term economic growth and living standards. By 2080, 
preschool programs could boost America's gross domestic product by 3.5 
percent, as well as raise long-run state employment levels by 1.3 
percent.
    The United States also lags other countries in early education and 
care investments. While the United States continues to debate about 
increasing its investments in young children, other industrialized 
countries have already done so. Many nations far surpass us in making 
early learning opportunities available to all. The United States has 
the highest child poverty rate of the 20 developed countries belonging 
to the Organisation for Economic Co-operation and Development. Forty-
three percent of infants and toddlers in America live in low-income 
families with incomes below 200 percent of poverty, and a fifth live 
below the poverty line. High-quality early education and care can help 
lift these families out of poverty.
    CED believes that broadening access to early care and education 
programs for all children is a cost-effective investment that will pay 
future dividends. And while early education must be an economic and 
educational priority, it is also part of a continuum of necessary 
childhood investments, beginning in the prenatal months and spanning 
the infant, toddler, and later school years that together will have the 
greatest impact on children's development, and ultimately, America's 
economic well-being.
    CED recommends that communities, states, and the nation make access 
to publicly funded, high-quality early education programs an economic 
and educational priority. The economic benefits of early learning will 
be greatest when all states implement high-quality, publicly funded 
early education programs and make them available to all three- and 
four-year-old children whose parents want them to attend. Early 
learning programs should provide adequate classroom hours to ensure 
improvements in student learning that will translate into economic 
benefits. States should embrace diverse providers that meet quality 
standards and the needs of the communities they serve. Maximizing 
program access and efficiency will require federal and state 
governments to coordinate publicly funded prekindergarten, Head Start, 
and child-care programs. Business should support early education 
programs and other complementary childhood programs and services, 
emphasizing the strong returns on investment and the leveraging of 
current expenditures.
    Furthermore, CED recommends that publicly funded early education 
programs meet the quality standards necessary to deliver their 
potential economic benefits. To provide the greatest economic benefits 
possible, state prekindergarten programs and the federal Head Start 
program should assess their existing program standards and realign them 
with the factors known to contribute to improved early childhood 
learning and development. Early learning programs should adopt an age-
appropriate, research-based curriculum that embraces whole-child 
development and is aligned with content standards in kindergarten and 
elementary education. All publicly funded early learning programs 
should employ high-caliber teachers with bachelor's degrees and 
specialized early-education training. A national board should be 
created to review and report on state early education and care 
standards.
    Finally, CED recommends that federal, state, and local governments 
consider the broad economic benefits of early care and education when 
deciding how to allocate resources in the face of competing uses and 
demands. Funding provided for early learning programs should be 
commensurate with the cost of providing a high-quality education to 
fully capture the economic benefits of these programs.
    CED believes that the implementation of these recommendations in 
all our states and the nation will strengthen our democracy and ensure 
U.S. economic competitiveness and growth through a highly-educated and 
skilled workforce.
    The Committee for Economic Development's early care and education 
policy statements are available online at www.ced.org.

Preschool for All: Investing in a Productive and Just Society (2002): 
        http://www.ced.org/docs/report/report--preschool.pdf
The Economic Promise of Investing in High-Quality Preschool (2006) 
        http://www.ced.org/docs/report/report--prek--econpromise.pdf
                                 ______
                                 
    Ms. Hirono. Thank you.
    Dr. Karolak?

  STATEMENT OF ERIC KAROLAK, PH.D., EXECUTIVE DIRECTOR, EARLY 
                 CARE AND EDUCATION CONSORTIUM

    Mr. Karolak. Thank you for the opportunity to speak to you 
today.
    I am Eric Karolak, the executive director of the Early Care 
and Education Consortium, an alliance of America's leading 
providers of quality early learning programs. As Representative 
Hirono mentioned, we reach more than 800,000 children every day 
in almost every state in the union. Increasing national 
investments and improving outcomes for young children are 
essential for America's continued wellbeing and our national 
competitiveness.
    Now, based on our experiences educating young children, I 
have four points I would like to make today. First, investing 
in young children is cost effective and it makes sense. Second, 
there is no single program or investment that works, no one 
right answer. Third, investing early is key. We cannot wait 
until just the third and fourth year of life to improve a 
child's chances in life and in school readiness. And, fourth, 
quality counts and quality costs.
    In the interest of not repeating testimony--Mr. Kolb and 
Dr. Phillips have done quiet well on several of these points--I 
would like to skip to my second point, if you are following, in 
the written testimony, and that is that there is no single 
program or type of investment that works, no one right answer 
to this issue. Rather, there are multiple programs, multiple 
pathways to achieving outcomes for children.
    America cannot afford to view child care as just a way to 
get parents to work and early education as something altogether 
different. In reality, as parents and children experience this, 
there is s a continuum of early care and education. It spans a 
range of settings--child care, Head Start, public school pre-K, 
family child care--and levels of quality, dependent in large 
part on locality, on what parents can afford, and what public 
support is available. We should be investing in multiple 
programs and at all age levels.
    But when investing, rather than adopt a one-size-fits-all 
institutional framework, leveraging community-based providers 
and their existing resources is the most cost-effective way to 
do this. Millions of children are already in these programs, 
often in facilities designed for young children. We have a long 
history and expertise, as my colleague from New Jersey 
referenced, in delivering programs to young children. Working 
parents especially look to our centers for something they 
cannot find elsewhere, and that is full-day, full-year programs 
that serve children birth to school age.
    States are seeing the value of this community-based 
approach, especially in delivering state-funded pre-K, although 
not without challenges for providers, and most recent research 
has emphasized the benefits that accrue both to local and state 
education agencies and to early learning centers when this kind 
of collaboration occurs.
    My third point is that investing early is key. Dr. Phillips 
has referenced that brain development begins from inception and 
that really no moment is too early. I would like to simply 
emphasize that. As Nobel Laureate economist James Heckman 
concluded, ``The longer we wait to intervene in the lifecycle 
of the child, the more costly it is to remediate or to restore 
the child to its full potential.'' That means the return on 
investment that Mr. Kolb spoke of begins to decline.
    Still, infants and toddlers are everywhere--everywhere--the 
most expensive age group to provide with quality services and 
typically the most difficult kind of care for parents to find 
and afford. The situation in California is dire, as I am sure 
Mr. McKeon and Mr. Miller knew, with annual costs approaching 
$11,000. Nationwide, we in our centers have infant-toddler 
waiting lists in many communities, both suburban and inner city 
low-income. America cannot afford to keep these kids waiting.
    Lastly, I want to emphasize that quality counts and quality 
costs. Research that you have heard referenced today is 
predicated on program quality. No one is coming here asking for 
money for nothing. It is money for quality. Yet investing 
responsibly then means supporting effective programs that are 
well implemented, well funded, and continuously improved.
    We invest in our centers in curriculum, in facilities, in 
educational materials, and especially in our workforce. But 
these and other elements of quality are costly, more expensive 
than what most parents alone can afford. Recognizing that high-
quality standards must be backed by sufficient public resources 
is essential to making sure these investments in young children 
are successful.
    Take workforce qualifications. Now, while the consensus in 
research has been elusive concerning the necessity of a 
bachelor's degree for producing quality outcomes, we understand 
that expectations around the early childhood workforce are in 
flux. In our experience, we have qualified, effective, and 
committed early childhood teachers who have bachelor's degrees, 
and we have qualified, effective, and committed early childhood 
teachers who do not.
    In either case, recruiting and retaining such qualified, 
effective, and committed staff is a challenge. I hear this from 
my nonprofit members, from for-profit corporate and proprietary 
child care providers, from Head Start agency directors. This is 
a universal issue. It affects schools as well because they, 
indeed, hire away from many of our centers.
    So teacher qualification requirements must consider the 
significant resources necessary to competitively recruit and 
retain qualified teachers, to support the current workforce in 
its rich diversity in obtaining bachelor's degrees or other 
credentials, and in building the capacity of higher education 
to produce more graduates in education.
    The federal government's interest in America's global 
competitiveness and future wellbeing of our citizens warrants a 
greater investment in early childhood, one that is sufficient 
to reach the quality standards our youngest children deserve.
    Thank you.
    [The statement of Mr. Karolak follows:]

Prepared Statement of Eric Karolak, Executive Director, Early Care and 
                          Education Consortium

    Good morning, Chairman Miller, Representative McKeon, and members 
of the Committee on Education and Labor. Thank you for inviting me to 
testify today on investing in young children.
    I am Eric Karolak, Executive Director of the Early Care and 
Education Consortium, an alliance of America's leading national, 
regional, and independent providers of quality early learning programs. 
Consortium members operate more than 7,600 centers enrolling more than 
800,000 children in 49 states and the District of Columbia. Our members 
include private non-profit organizations and for-profit companies who 
offer full-day/full-year programs for children birth through age 12, 
state-funded prekindergarten, before- and afterschool programs, 
extended day, and summer programs with enrollments that reflect the 
rich diversity of our communities and nation.
    Increasing national investments and improving outcomes for young 
children are essential for America's continued well-being and our 
national competitiveness.
    Based on our experiences educating children--recruiting teachers, 
meeting parent needs, collaborating with community partners, and 
managing budgets--I have four points to make today:
    1. Investing in young children is cost effective and makes sense.
    2. There's no single program or type of investment that works alone 
to the exclusion of others; rather there are multiple pathways to 
achieving outcomes for children.
    3. Investing early is key. We can't wait until children are age 3 
or 4 to improve their chances for school and life success.
    4. Quality counts and costs. Policymakers must recognize the 
connection between standards and financing when developing programs.
    First, investing in young children is cost effective and makes 
sense. Research by Nobel laureates and Federal Reserve economists, 
drawing on 40 years of longitudinal studies on early learning programs, 
has demonstrated conclusively that investing in early childhood 
development especially for at-risk children yields extraordinary annual 
rates of return--ranging in real terms between 7 and 18 percent--far 
exceeding the return on most investments, private or public. If early 
childhood education was a stock, many are fond of saying now, it would 
be wildly undervalued.\1\
    And the benefits don't just flow from focusing on cognitive 
development: the ``ABCs''. Researchers emphasize that a balanced 
approach to emotional, social, cognitive, and language development will 
best prepare children for success in school and later in the 
workplace.\2\
    We see these benefits and their promise daily, in the achievements 
of young children as they become literate, numerically adept, socially 
competent, and responsible through experientially rich, active learning 
environments. And we see it in the faces of parents, knowing that their 
children are safe and receiving stimulating experiences from committed 
teachers that prepare them for school and life.
    Second, it's important to remember that there's no single program 
or type of investment that works alone to the exclusion of others; 
rather there are multiple pathways to achieving outcomes for children, 
and the devil really is in the details.
    America can't afford to view ``child care'' as just a way to get 
parents working and unrelated to ``early education.'' There is a 
continuum of early care and education from birth. It includes learning 
centers like those of the Consortium, Head Start agencies, school-based 
early childhood programs, and family child care homes, and it spans a 
range of settings and levels of quality, dependent in large part on 
what parents can afford and what public support is available. We should 
be investing in multiple programs and at every age level.
    Rather than adopt a one-size-fits-all institutional framework, 
leveraging community-based providers and their existing resources 
produces the greatest and most cost effective benefits. Millions of 
children are already in community-based programs, in facilities 
designed for young children. We have a long history and expertise in 
working with young children. Parents look to our centers to meet 
diverse needs and in turn we are responsive: our centers provide full-
day and full-year programs; parents are always welcome; they're 
considered full partners in their child's learning and development; 
parents talk with their child's teachers every day, and often 
participate in parent activities and on advisory boards.
    States are seeing the value of this community approach as well. All 
but three state prekindergarten initiatives allow preK to be offered in 
community-based centers, and one-third of children enrolled in state-
funded preK are served in settings outside schools.\3\ We find that 
local school administrators are more likely to prioritize collaboration 
with community-based organizations when states require a percentage of 
funds be used for community-based delivery.
    State-funded preK programs are not typically structured around the 
schedules of parents. Taking advantage of existing community-based 
providers is less disruptive for children who do not have to be moved 
from one location to another each day, and allows their parents to 
focus on work and parenting rather than carpooling or worrying about 
their very young children being bussed about. Recent reports have 
documented additional benefits including efficiencies from investing in 
existing centers with experience working with young children, more 
stable sources of funding for participating community-based early 
learning centers, and spillover beneficial effects beyond the preK-aged 
classroom or program hours.\4\ It is now accepted that the best way to 
accomplish preK is through a mixed delivery model that taps the 
existing capacity and expertise of early care and education 
providers.\5\
    Early Care and Education Consortium members participate in more 
than 20 state-funded prekindergarten programs, in many cases 
contracting directly with school districts or state education agencies 
to provide these services. Our members also have informal partnerships 
with many public schools and in some cases kindergarten teachers come 
to our centers for school readiness training, and we are then able to 
send our staff to local public schools for in-service training for K-3 
or other related issues. Our centers also work in many states to link 
students to services at the public schools, but still receive education 
and care in our centers.
    This brings me to my third point, investing early is key. If we 
wait until age 3 or 4, it may be too late for some children and in 
general the public investment will be less rewarding.
    ``The basic principles of neuroscience and human capital 
formation,'' researchers at Harvard's Center on the Developing Child 
tell us, ``indicate that later remediation will produce less favorable 
outcomes than preventive intervention.'' \6\ As a result, the return on 
later intervention is much lower. Nobel laureate economist James 
Heckman concludes, ``Life cycle skill formation is dynamic in nature. 
Skill begets skill; motivation begets motivation. * * * The longer we 
wait to intervene in the life cycle of the child the more costly it is 
to remediate to restore the child to its full potential.''
    We know this from working with the children, especially from our 
experience with infants and toddlers and their families. Babies are 
growing and learning all of the time. The first two years of life are a 
critical period for language and the development of self. Providing 
rich learning experiences, supportive learning environments, and 
positive relationships with children during the first three years is 
crucial to creating a foundation for learning. Failing to do so is to 
miss opportunities for improving school readiness and life success.
    Despite the importance of investing early, there is a dramatic need 
for funding for infants and toddlers. It is everywhere the most 
expensive age-group to provide with quality services, and typically the 
most difficult kind of care for parents to find and afford. In 
California, for example, average costs statewide run nearly $11,000 for 
an infant in a licensed center.\7\ Nationwide, we have waiting lists 
for infant and toddler programs in many communities, both suburban and 
inner city low-income.
    Lastly, we can't underemphasize that quality counts and quality 
costs. The research on the benefits of investing in young children is 
predicated on program quality. Investing responsibly means supporting 
effective programs that are well-implemented, well-funded and 
continuously improved.
    We constantly strive to build in better quality in our centers. We 
invest in curricula and the research to demonstrate its effectiveness, 
in facilities and educational materials and, most importantly, in the 
workforce. We all have programs to invest in staff, often linked to 
public-funded efforts like T.E.A.C.H.(r), and with the goal of helping 
the existing workforce obtain credentials and degrees.
    These and other elements of quality are costly. The cost of quality 
care and education is more expensive than most parents alone can 
afford. More federal investment is needed.
    For many early learning centers, Child Care and Development Block 
Grant funding is a foundation for quality. But current funding levels 
are inadequate and over time many states have increased income 
eligibility levels, raised parent copayments, and/or reimbursed 
providers at lower rates. In 2007, only 9 states set child care 
assistance reimbursement rates at the federally-recommended level.\8\
    As a result, we've seen families receiving child care assistance 
forced to leave our programs and seek cheaper, lower quality 
arrangements when income eligibility levels were raised or copayments 
increased. And we've been forced to make difficult decisions regarding 
whether to continue enrolling families receiving child care subsidies 
and even whether to keep centers open in certain areas. In 2007, one of 
the nation's largest providers had to close 20 percent of its centers 
in Texas.
    States are addressing quality with limited funding. Recognizing 
that community-based providers reach the largest number of young 
children, states like Pennsylvania have invested in voluntary, quality 
improvement strategies that include financial supports for reaching 
higher quality levels, and program ratings for parents.\9\ Others like 
Minnesota are piloting an innovative endowed fund that finances the 
cost of quality preschool through outcomes-based scholarships to 
families of at-risk children.\10\
    Recognizing that high quality standards must be backed by 
sufficient resources is essential to making successful investments in 
young children. Take the issue of workforce qualifications. While a 
consensus in research has been elusive concerning the necessity of a 
Bachelor's degree for quality outcomes, we understand that expectations 
concerning the qualifications of the early childhood workforce are in 
flux.\11\ Our experience is that there are qualified, effective, and 
committed early childhood teachers who have Bachelor's degrees, and 
there are qualified, effective, and committed teachers who do not have 
Bachelor's degrees. In either case, recruiting and retaining qualified 
staff is a challenge. The range of qualified teachers reflects regional 
labor market conditions, what parents are able and willing to afford, 
and the infrastructure of state and community programs for developing a 
pool of early childhood educators. Teacher qualification requirements 
must consider the resources necessary to competitively recruit and 
retain teachers, support the current workforce in obtaining a degree or 
other credential, and build the capacity of higher education to produce 
graduates in early childhood education.
    In conclusion, the federal government's interest in America's 
global competitiveness and future well being warrants a greater 
investment in early childhood, one that is sufficient to reaching the 
quality standards our youngest children deserve.
    Thank you for the opportunity to brief you today.
                                endnotes
    \1\ Art Rolnick and Rob Grunewald, ``Early Childhood Development: 
Economic Development with a High Public Return,'' Fedgazette (December 
2003), p. 7; James Heckman, ``Catch 'em Young: Investing in 
Disadvantaged Young Children is Both Fair and Efficient,'' Wall Street 
Journal, January 10, 2006, p. A14;; and Rolnick and Grunewald, ``The 
Economics of Early Childhood Development as Seen by Two Fed 
Economists,'' Community Investments (Fall 2007), pp. 13-14.
    \2\ Jack P. Shonkoff, ``A Science-Based Framework for Early 
Childhood Policy,'' presentation at the Council of State Governments 
Eastern Regional Conference, Boston, September 7, 2007.
    \3\ W. Steven Barnett, Jason T. Hustedt, Laura E. Hawkinson, and 
Kenneth B. Robin, The State of Preschool 2006: State Preschool Yearbook 
(National Institute for Early Education Research, 2006), pp. 196-197.
    \4\ Karen Schulman and Helen Blank, A Center Piece of the PreK 
Puzzle: Providing State Prekindergarten in Child Care Centers (National 
Women's Law Center, November 2007).
    \5\ For example, PreK Now, a leading national advocacy organization 
that advances high-quality, voluntary pre-kindergarten for all three 
and four year olds, strongly supports offering preK in diverse 
settings. Visit its policy position, School Choice in PreK, online at 
http://www.preknow.org/policy/choice.cfm.
    \6\ Shonkoff, ``A Science-Based Framework for Early Childhood 
Policy.''
    \7\ California Child Care Resource and Referral Network, 2007 Child 
Care Portfolio (December 2007).
    \8\ Karen Schulman and Helen Blank, State Child Care Assistance 
Policies 2007: Some Steps Forward, More Progress Needed (National 
Women's Law Center, September 2007).
    \9\ More than a dozen states have established quality rating and 
improvement systems, and many more are developing them. For an 
overview, consult Anne Mitchell, Stair Steps to Quality: A Guide 
(United Way: Success by 6, 2005). The rating system in Pennsylvania is 
Keystone STARS, and more information is available online at http://
www.dpw.state.pa.us/PartnersProviders/ChildCareEarlyEd/
KeyStoneStarChildCare/.
    \10\ The Minnesota Early Learning Foundation's pilot program is 
designed to reward performance and encourage high quality and 
innovative practices among providers by empowering at--risk parents 
with resources to access high-quality early education. Visit the 
Minnesota Early Learning Foundation website (http://www.melf.us/) for 
more information.
    \11\ See, for example, Diane Early et al., ``Teachers' Education, 
Classroom Quality, and Young Children's Academic Skills: Results from 
Seven Studies of Preschool Programs,'' Child Development (March/April 
2007): 558-580. Among other issues, the impact of a Bachelor's degree 
where an effect has been found has not been isolated from other 
variables like compensation.
                                 ______
                                 
    Ms. Hirono. Thank you.
    Mr. Haskins?

   STATEMENT OF RON HASKINS, PH.D., SENIOR FELLOW, ECONOMIC 
                 STUDIES, BROOKINGS INSTITUTION

    Mr. Haskins. Representative Hirono, Mr. Castle, members of 
the committee. Thank you for inviting me here today.
    This committee, as I suspect all of you know, has been at 
the forefront of almost every significant development in early 
childhood education or child care in this country for the last 
half-century and, as shown by last year's Head Start 
reauthorization, it would be expected the committee would 
continue to play that role.
    I just want to make three points. The first one has already 
been made. I think everybody on this panel agrees and, indeed, 
I think almost everybody who knows the research agrees that 
preschool packs a powerful punch. There is no question, based 
on the Perry Preschool, Abecedarian, Chicago Child-Parent 
Centers that we have all seen, that compared to almost any 
other intervention, the only intervention I can think of that 
can produce the range of benefits of preschool is adoption, but 
I have studied intervention programs most of my adult life, and 
nothing is as powerful as preschool.
    Second point: Just because preschool worked in several 
instances, it does not follow that people who pour money into 
preschool necessarily get a return. Several witnesses have 
already made this point, but I think it bears repeating, and I 
think the best example of what we would get from a national 
program, which, of course, is the interest of this committee, 
is what we are getting from Head Start.
    There is a lot of room to disagree. I think we probably 
disagree on this panel. But I would say on the whole, Head 
Start has turned in a mediocre performance after more than 40 
years of existence. I base that on the national random-
assignment study that was ordered by this committee in 1998 
that shows very modest effect sizes, much more modest, for 
example, than the state preschool programs and not even on the 
same continent with the Abecedarian program and the Perry 
Preschool program and also on the FACES study that has been 
reported to this committee in the past.
    So I think, on the whole, the evidence shows that Head 
Start is not producing the results that we would really like to 
have, namely big impacts on children, powerful impacts on 
school performance, and powerful impacts on other developmental 
measures, like finishing school, going to college, avoiding 
teen pregnancy, avoiding crime and delinquency, all of which 
have been shown by one or more of the other studies to be 
possible.
    Therefore, since we have been doing this for roughly 40 
years with modest changes--and some of the changes in last 
year's bill I strongly support. I think they were very wise 
decisions about coordination and so forth--I think we need to 
think fairly radically.
    Now, first, I would not change the Head Start statute and 
willy-nilly make all sorts of changes in Head Start and turn it 
over to states or anything like that. But I do think that we 
should give the states much more flexibility than they now 
have.
    If you look at the chart in my testimony on spending on 
preschool, you will see that there is a host of programs and 
three very, very big programs--Head Start is one of them, state 
preschool which is a relatively new entry and growing rapidly, 
and then the Child Care and Development Block Grant--all of 
those spend billions and billions of dollars, and yet there is 
very little coordination around the country. There are even a 
number of people--we had a meeting on this at Brookings a 
couple of years ago. I believe you might have been there--and 
there were several people in the states who said it was 
difficult to get cooperation between these various programs.
    So I think the only way that we can get cooperation and 
have a focused, unified strategy in some state or locality--it 
would not necessarily have to be a state. It could be a city. 
It could be a county--is to give the Secretary the authority to 
allow a state or locality to have the control of Head Start 
funds as well as the other funds, which they basically already 
have, and to create a unified program under several conditions.
    We make a deal with them. If you will conduct this 
experiment, we will give you additional funds, but you must 
first ensure that all kids at 150 percent poverty get at least 
a 4-year-old program. Secondly, that there be a third-party 
evaluation. And, finally, that the state or locality would 
increase its spending by a certain amount--I said 5 percent per 
year over inflation in my testimony, but it could be whatever 
you select--to show that they are really serious about this, 
and if the federal government would match that and pay for the 
evaluation.
    I think if we did something like this that we might really 
find out that localities can do a very good job of coordinating 
this money and increasing the quality to Head Start. I think 
that this committee and the Congress have focused too much in 
the past on just increasing the number of kids who are getting 
into preschool programs. That will not do it. If more kids get 
what is offered by Head Start, we will have very modest 
impacts. We need much bigger impacts.
    So we not only need to increase coverage and increase the 
number of kids in the program, we also need to increase quality 
at the same time, and I do not think we can necessarily control 
that from Washington.
    I would point out to the committee--I give some examples in 
my testimony--that there is a new program in Minnesota that is 
being funded by donations from business and other 
organizations. They intend eventually to build a $1.5 billion 
fund, and they are going to fund preschool programs for kids 
ages 3 and 4 plus a home visiting program for kids who are 
seriously disadvantaged, and they are going to allow parents to 
make the decision. It is going to be a competitive system.
    That is the kind of thing that I think we need to have. We 
need more experiments like that in the country, and this 
committee and the federal government could play a role.
    This is a time of permanent child care, and in preschool 
programs, it is the time to get the most out of what we have, 
and we need new ideas and new approaches at the local and state 
level. I hope this committee will decide to be adventurous.
    Thank you.
    [The statement of Mr. Haskins follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                ------                                

    Ms. Hirono. Thank you all for your testimony.
    I now recognize myself for 5 minutes.
    For Mr. Kolb, I am very glad, representing the business 
community, as you do, that you say, I believe, that investing 
in quality early education is a number one priority for your 
organization and the people with whom you work. You also 
mentioned that other countries are doing far better than we 
are. Is it because they are investing much more financially in 
preschool programs? You mentioned France and Great Britain.
    Mr. Kolb. Congresswoman, I am not sure that it is a 
question of absolute dollars. I think in cases like France and 
the U.K., there has been a national commitment.
    A couple of years ago, we held a conference on early 
education in New York, and I remember at the time Beverley 
Hughes, who was the minister in Tony Blair's Cabinet in charge 
of early education, said that this issue had been a priority 
for the Blair government. Now I suspect, if you look at the 
numbers, they probably spend less than we do, certainly in the 
aggregate, and quite possibly on a per student basis.
    But we are not there yet as a country. And I think Ron 
Haskins' point about looking at ways to coordinate all the 
dollars that are being spent--federal, state, local, and 
private--is a very interesting issue for us.
    Ms. Hirono. At the same time, though, we know that all 
across our country, there are various kinds of preschool 
programs taking place in both the public and the private 
sector, and I would like to ask all of you whether or not you 
think that the federal government's involvement in this area in 
supporting preschools should be more in supportive as opposed 
to supplanting what is going on in our various states and 
jurisdictions, if you can all briefly respond to where and how 
the federal government involvement should be.
    Ms. Phillips. Do you want me to start?
    Ms. Hirono. We will start with you.
    Ms. Phillips. I will go first.
    I think, going back to the point that was just made, it is 
very important--we are spending billions--billions--of dollars 
on early childhood education in this country. Sometimes we call 
it the Child Care and Development Block Grant. Sometimes we 
call it Head Start. You know, sometimes we call it pre-K. 
Sometimes we call it Title I. I mean, the dollars are being 
spent, and the question is how to make sure we are getting the 
return on investment that we are hoping to get and that we know 
we can get.
    And so the challenge is not spending more money; it is 
spending what we have wisely. We know so much more now about 
how to direct those dollars. You have heard it from every 
single one of us. I am so impressed by how consistent this 
panel is. It is about the quality of the teaching force. It is 
about keeping them in their jobs with livable wages that are on 
a par with elementary school teachers so that you do not have a 
brain drain off of pre-K into the kindergarten classroom which 
is often right next door.
    It is about working with parents effectively. It is about 
making sure that those teachers are armed with knowledge about 
child development and about instruction in academic and social 
skills that really produces learning. We have curricula that 
work. We know how to do this at the pre-K level. We just have 
to arm the teachers with that information and make sure that 
they are qualified and know how to bring that curricula to 
life.
    To me, those are the bottom line, and figuring out how the 
federal government can foster those ingredients is the key to 
the castle, no pun intended.
    Ms. Hirono. Ms. Priestly, would you like to add to that?
    Ms. Priestly. Sure. I would like to relate it to my own 
experience in that whether it is the State of New Jersey's $800 
million--or whatever we are at right now--for investment in 
preschool or my $8 million in my own district, that is a big 
responsibility, and I take it very seriously.
    I was speaking to the assistant commissioner of early 
childhood the other day, and, you know, she said the same 
thing, and we said we know now how to be effective and 
efficient, and it is, you know, very important.
    In my own case, I have a large Head Start center that I 
work very closely with, and our state dollars are added to the 
federal dollars to help that program meet the standards that we 
have. So, whether it was reducing class size or hiring teachers 
with BA's, whatever we needed, the--Dr. Phillips said without 
the retention of teachers, we have seen a big difference.
    Since we have been able to provide professional development 
and in-class support, their turnover has dropped dramatically. 
So it is supporting those classrooms in other ways, the 
adoption of the curriculum. We are using the same model 
throughout. So I think it is an almost independent, you know, 
case-by-case situation state by state as to where the money is 
needed.
    Ms. Hirono. My 5 minutes is ending, so if everyone else 
could just respond with maybe two sentences, I would appreciate 
it.
    Ms. Chun?
    Ms. Chun. Well, very quickly, I do not believe it is 
supplanting. I think it is supporting what the state is trying 
to do and encouraging the states. Federal money can encourage 
the states to maintain quality in their work. We all know we 
need a quality workforce, and we do need new investments. Many 
states have not been able to invest large sums of money as yet, 
and the federal encouragement will help us greatly.
    Thank you.
    Ms. Hirono. Mr. Karolak?
    Mr. Karolak. You can tell Ms. Chun and I are close to the 
ground.
    I would also say it is not just the federal government. It 
is the federal government and the state. Some of the solutions 
are extending loan forgiveness to early childhood teachers so 
they have the same benefit that public school pre-K teachers 
would have in getting a BA.
    I have to say, though, to be a realist, if my bosses, all 
18 of them, came to me and said, ``Do this, that, and the other 
thing, and do it with no new money,'' it would be a challenge, 
and I think that we have to be careful in not simply saying it 
is a matter of reshuffling the dollars, but thinking carefully 
about what those dollars are going to buy and where they are 
going to buy it and that there may be some offsetting factors 
in terms of access and accountability.
    You know, one of the issues that is closest to us in terms 
of the child care assistance program is subsidy reimbursement 
rates, and they are dire. They are incredibly low in some 
states. Last year, in Texas, the largest early learning 
provider in the State of Texas closed 20 percent of its 
locations because it could not make the subsidy reimbursement 
work for its budgets. That is a problem, and I think at some 
point resources are a part of that.
    Ms. Hirono. Thank you.
    Mr. Haskins?
    Mr. Haskins. The role of the federal government is to 
support states, parents, and localities in developing the 
system that best meets their needs, and there are five ways we 
do it.
    The first is research. We have magnificent research on 
preschool programs, and it is largely because of federal 
investments.
    Accountability: The federal government should demand 
accountability from anybody that has its money, and that should 
include measures of child performance. In fact, that is the 
key.
    We should focus our resources on the poor and try to get 
the states to do the same thing, make sure the poor are covered 
under some definition. I would go with 150 percent of poverty.
    And, finally, whatever we do should involve parent choice.
    Ms. Hirono. Thank you very much.
    And now I would like to yield 5 minutes to Mr. Castle.
    Mr. Castle. Thank you very much. And I am pleased to be 
here. And I am pleased with the panel.
    And I agree with the bottom line that all of you, as far as 
I can ascertain, that is the importance of early education. I 
do not think there is any question in our minds about that, but 
I also agree with what, I think, virtually all of you have 
said, and that is that there is some real confusion, if you 
will, as to exactly what works in early education.
    And here is part of my confusion, my deja vu. We just spent 
5 years working on Head Start and Early Head Start here in this 
committee, and we finally got a bill passed. It was signed 
about a month ago or something of that nature, and I visited a 
number of the Head Start operations in Delaware where I am 
from, you know, to see what they are doing, and I think we have 
done some good things in that bill. I mean, we have demanded 
higher credentials for the teachers and those kinds of things.
    But Head Start and Early Head Start clearly conflict with 
pre-kindergarten in terms of age. I do not think conflict, but 
they run across the same populations to a great degree.
    And there are other programs as well. There is a program 
called KinderCare--you are probably familiar with it--in 
Newark, Delaware, and I saw what they are doing, and they are 
doing some very good--that is the private enterprise--things, 
and I appreciate your work on that. That is something else 
which helps a far as kids are concerned.
    But, you know, I worry about this. I worry. We just got 
through Head Start, and all of a sudden, we are talking about 
another federal expansion perhaps in doing more in terms of 
pre-kindergarten or whatever, and now are we doing perhaps what 
Dr. Haskins has asked? Are we stepping back and looking? Are we 
spending our money wisely? Are these the things that we should 
be doing? Are we coordinating well as far as our states and 
school districts are concerned? These issues are of great 
concern to me.
    And I have another abiding issue, and that is the role of 
the parents and what longitudinal studies do we have with 
respect to the parenting, that is how kids do in households 
with both parents in the household. What are the income 
circumstances? Clearly, lower income is probably going to mean 
lower education for the parents, which means lower 
opportunities for the kids. Do we have studies that really show 
that?
    Or do we have a problem here in this country right now in a 
lack of coordinated focus on what we are doing in all of these 
early education programs that we need to go back and revisit 
rather than just continuing to create the next best thing that 
seems to work in some way or another?
    That is really just a very general discourse I just went 
off, but I would be interested in any comments you may have on 
the need to get a sharper focus on what we are doing in our 
early education programs. If there are no volunteers for that, 
I----
    Mr. Kolb. Thank you.
    Sometimes in Washington, Congressman, my sense is that 
there is a great tendency to focus on programs and less so on 
people. Now that is a broad generalization.
    But when I served in the Education Department under Reagan 
and Bush I, I remembered when I oversaw the Budget Office, I 
was surprised to find that the people in the Education 
Department who ran--I think it was called Even Start at the 
time--a program called Even Start and then Chapter I, now Title 
I, never talked with the people two buildings over who ran Head 
Start, and yet if you look at the continuum, the age continuum 
of the children being served, there was no excuse for that, and 
so you had a lot of good programs, well-intentioned programs, 
but not so much effort, particularly on the part of the 
bureaucracy, to focus on serving the people.
    So I would agree with you on the point that we need to 
think about spending wisely, better, more flexibly, but we do 
make a point in the CED report that--in the first one--access 
to early education is limited in this country, and it is 
uneven, and part of that has to do with the amount of resources 
being spent, and we also indicate that--and we believe quite 
strongly in this--public investment still remains inadequate.
    Now that, in my view, does not take anything away from your 
point about spending wisely, spending better, and more 
flexibly, and focusing on the young people and getting out of 
this sort of categorical programmatic mindset.
    Mr. Castle. Thank you.
    Mr. Haskins. I think, first of all, yes, we have a big 
problem, the same problem we had in 1964 and 1965 when we 
declared a war on poverty, and that is that a lot of children 
live in poverty and deep poverty, and their parents' child-
rearing practices are not conducive to adequate child 
development. That is the whole philosophy behind Head Start.
    We are much better off as a nation because of Head Start 
and our investments in preschool programs, but on a 10-point 
scale, we are 3 or 4. We could do a lot better, and I do not 
think we can put out, you know, a formula saying, ``If you do 
these five things at the county level, everything is going to 
be fine.''
    I think you have to follow the same approach--it is 
probably not very popular on this committee--that we followed 
in No Child Left Behind. We have to let the states and 
localities figure it out for themselves. We have to set up a 
system that they have incentives to do so and reward good 
performance and punish bad performance, and that is the kind of 
system that I outline in my testimony. I think that is the only 
way that we are really going to produce change across the whole 
country.
    There will be places that figure it out gradually, like the 
Minnesota example I gave you, and there are others around the 
country as well. But if we want to affect change in the whole 
country, we have to put a system in place that rewards good 
programs and punishes bad programs or defunds them.
    Ms. Phillips. Can I chime in briefly on this?
    Mr. Castle. It is up to the chairwoman.
    Ms. Hirono. The time has expired.
    Mr. Kildee?
    Mr. Kildee. Thank you, Madam Chair.
    You know, it is incredible that our predecessors in 1965 
wrote such a bill as Head Start, and they did not really 
realize that the actual--at that time--physical development of 
the brain depended so much upon that external stimulus. They 
were really very prophetic. They wrote a great program without 
the knowledge that we have now on that.
    Well, we now know that physical stimulation is an essential 
part of that development, and we tried to incorporate that 
knowledge into the recent reauthorization of Head Start, which 
was a bill which I introduced, and what more can we do because 
we are really have made some major breakthroughs understanding 
how the brain is physically developed by that external 
stimulus? What more can we do?
    Obviously, more students would be helpful. How about more 
Early Head Start? Is there anything to be gained by having the 
inclusion of maybe some more nonpoverty students in that mix.
    Dr. Phillips, would you start responding to that?
    Ms. Phillips. I would be happy to. Thank you.
    And thank you for your decades of tireless work on these 
issues.
    In Tulsa, we actually looked at classrooms that had mixed-
income groups of children versus classrooms that were primarily 
low-income children. It is a universal pre-K program, so we 
find, you know, dramatic impacts across the income spectrum, 
across every single racial group. We cannot find a child hardly 
who is not positively affected by the program.
    So we have a situation there where we have low-income 
children who are, just because of their neighborhood, in 
primarily low-income classes and low-income children who are in 
mixed classrooms with middle-and upper-income children. The 
low-income children who are in the mixed-income classrooms do 
better than the children who are in exclusively low-income 
classrooms.
    In all of these classrooms, you have a BA-level teacher, 
certified teacher, well-paid teacher, and so, you know, there 
is research in the field at the elementary level as well, 
though with mixed findings, about the effects of mixing low-
income children into a more socioeconomically diverse group. We 
do always assume that targeting is the right thing to do, and I 
understand that from an economic perspective, but there are 
peer group effects, and they do matter. So, you know, that is 
where the evidence is now.
    Mr. Kildee. I certainly want to keep that focus upon those 
who are, you know, locked in poverty. This has been one of the 
great aspects of Head Start.
    But there is an interaction. There is child society out 
there, isn't there, you know, certain things that adults really 
never have to impart to children. They impart certain things 
one to another. You know, I will use the home example. My 
parents never taught me how to play hide-and-seek. My brother, 
a year older than I was at that time, taught me that.
    There is a certain child society out there, and perhaps 
without losing the emphasis about the special need that poverty 
children have, perhaps a mixture might be helpful because of 
this child society that does exist.
    You know, we are talking about No Child Left Behind now, 
and we are wondering how a child going from the fourth to fifth 
grade or the fourth grade, from one year to another year meets 
adequate yearly progress, right? There must be some direct 
relationship between what happens with those Head Start kids 
and their ability to, in the fourth, fifth, sixth grade, meet 
adequately progress.
    And, Mr. Kolb, you mentioned the interrelation which very 
often we do not see often enough, right, or do not talk to one 
another often enough. Do you see Head Start really helping No 
Child Left Behind as that program is improved and implemented 
more?
    And any of you may respond.
    Ms. Phillips. I can give a quick answer just from the FACES 
data, for example. Dr. Haskins talked about the FACES data, but 
also in the FACES data is a wonderful chart showing what 
happens to the children who are in Head Start at the end of 
kindergarten, and the children who made more progress in Head 
Start made additional progress and greater progress than the 
children who in Head Start made less.
    In other words, you create this sort of push, and if the 
push is stronger in Head Start for whatever reason, then they 
go a little farther and a little faster in kindergarten as 
well. So I think, right there, just even in that little short-
term window, you have pretty compelling evidence that strong 
gains in Head Start can boost your gains in No Child Left 
Behind.
    Like others have said here, I would love to see greater 
attention to preschool education in No Child Left Behind. I 
think you have a remarkable opportunity here with a piece of 
legislation that is in place to invest where everyone on this 
panel is telling you you are going to get the greatest 
investment for your dollar.
    Mr. Kildee. Thank you very much.
    And, again, in case I do not get a choice towards the end 
of the program, I really appreciate, Madam Chair, the panel we 
have here. I think we have a really great cross-section of 
expertise out there, and I very much appreciate this.
    Thank you.
    Ms. Hirono. Thank you.
    Ms. Foxx, you are recognized for 5 minutes.
    Ms. Foxx. Thank you.
    I want to agree with my colleague, Mr. Kildee. I think we 
have an excellent panel, and I appreciate the comments that you 
have made.
    I want to give you just 30 seconds on my background because 
I know a little bit about a lot of things, and so I am sort of 
a dangerous person, but I have a background in education. I was 
on the school board. I was on the original Partnership for 
Children Board in North Carolina, the Smart Start program, and 
I have not heard any of you mention that, and my doctorate is 
in higher education and curriculum and teaching, so I have done 
a little bit of work in the area of human development.
    I am very curious that none of you have mentioned something 
that I think we should do in this country, even having come 
from a higher education background. We do it exactly backwards. 
Why is it we pay university professors $150,000 a year for 
teaching the best and the brightest who make it to the 
universities, and we are paying people in child care minimum 
wage?
    I think we have it exactly backwards in this country, and 
how in the world we change that value system, I do not know. 
But I have always felt that the system is backwards in that 
respect, and none of you have made that recommendation. So I 
would like you to think about that in the future.
    I also want to say that I am extremely impressed with most 
of you talking about the issue of accountability, and that is 
coming from witnesses on both sides of the aisle, and that, 
again, has been one of my big issues here in the federal 
government. I think whatever program gets money from the 
federal government, we need strong accountability.
    Now I am hearing a little bit of mixed comments from you. 
And I am going to quit talking in just a minute and ask my 
question. I do not believe that there is much debate in what 
works and does not work in early childhood programs. Now you 
all might correct me on that, but, again, with my limited 
background in this area, I think we know a lot about what works 
and does not work.
    I believe that, to a certain extent, you should give some 
flexibility, but I also think that if you are going to give out 
money for programs, you have to make people justify the 
flexibility that they have because if they are going to go off 
on tangents, if they are going to ignore the excellent research 
that is out there, then there has to be a justification for 
that, and I do not see how you can, again, allow wide latitude 
if you are going to do this. And the other is I agree about the 
silos that we have.
    Now I would like to ask this question. Has anybody done 
anything to look at what the cost would be to bring the 
programs to where you think they should be? And this could be a 
pretty short answer. You can tell me any billions you are 
talking about. But what I would like to know is, has anybody 
looked at putting all those programs into one program, 
eliminating the administrative costs that exist out there?
    I know we have 43 worker training programs in the State of 
North Carolina. I think there are 73 at the federal level. I do 
not even know how many early childhood programs, but let us say 
you collapse all the early childhood programs into one and you 
say to the states, ``We will continue to give you the amount of 
money the federal government is giving you, but you have to 
have one administration and one plan,'' which could have many 
parts, and then see what happens. Who has done that study or 
who needs to do that study?
    We will start at the end and come up, and please answer 
fairly quickly.
    Ms. Phillips. I have been talking a lot, so I sort of 
wonder if others would like to go first.
    Mr. Kolb. Also, if I had had a sixth minute, I would have 
gone on to Smart Start and Jim Hunt, Jr., who is one of our 
heroes at CED, and when we released our first report, Jim Hunt 
was the keynoter. So we are a big fan of what you all have done 
in North Carolina.
    Second, on the compensation, I could not agree with you 
more. I have a 10-year-old fifth-grader at home. She had the 
benefit of having a really good pre-K experience. I have had a 
lot of education, big consumer. I could not begin to do what 
those teachers did, and I would come home, and I would say to 
my wife, you know, ``They do not pay those men and women enough 
for what they do.''
    On the third point, I do not know if anyone has done it. It 
needs to be done. But I keep hearing analogies to welfare 
reform where you actually did break down some of these 
categories, gave states some flexibility, and you got some--
with waivers and other things here in Washington--creative 
results.
    Mr. Haskins. The major pieces the states already control, 
and they could do a pretty good job of coordinating those if 
they would do it. Some states, especially North Carolina, and a 
few others have done that.
    The biggest piece that they cannot control is Head Start 
because it is funded from the federal government directly to 
the Head Start authority. In some states like Washington, at 
least for over a multiyear period, they had success 
coordinating all those programs. The person that ran the state 
preschool program was a former head of the Head Start 
Association in the state, and that helped a lot. But many 
states, notably North Carolina, have had a lot of trouble, and 
they have not been able to coordinate the program. So, if you 
want them coordinated, I think that is a key.
    But a second point I would make: There is another way to do 
it completely separate, and that is have competition and only 
allow federal funding for programs that have produced success, 
and then they can figure out how to coordinate it themselves.
    Ms. Foxx. Nobody is answering how much money.
    Ms. Phillips. I will.
    Mr. Kolb. $35 billion was what we estimated.
    Ms. Foxx. $35 billion?
    Mr. Kolb. For universal pre-K. This was 6 years ago. That 
is in our report, Congresswoman. It is probably larger than 
that at this point.
    Ms. Hirono. The gentlewoman's time has expired.
    Mr. Hare, you are recognized for 5 minutes.
    Mr. Hare. Thank you, Madam Chair. It is a pleasure to see 
you sitting in the chair this morning.
    I would just like to maybe ask two questions, one for Mr. 
Kolb. Many times before this committee, you know, I have talked 
about the decline in manufacturing jobs as a result of trade 
policies that do not work, and in 2004--a city in my district, 
Galesburg, Illinois, had a Maytag plant--we lost 6,800 workers 
to Senora, Mexico, and it had a devastating impact, as you can 
imagine, on the community and the local economy.
    My question is, in your testimony, you mention the economic 
promise of investing in early education, and I am wondering can 
investments in high-quality pre-K serve as a long-term economic 
development solution for trade-impacted communities looking to 
create jobs and build, you know, a productive workforce, such 
as the City of Galesburg?
    Mr. Kolb. I think that it is part of the answer. I do not 
think it by itself will do that, but I think if you do not 
start at the beginning, you are not likely to get those 
results.
    CED has looked at the whole issue of trade and the impact 
of globalization, and what we also do not do well as a country 
is to provide sufficient assistance to those people who, for no 
reason of their own, are adversely affected by free trade.
    On balance, open borders, free trade, going back to Adam 
Smith who got the arguments right, you know, in 1776, has been 
a plus for this country, and there have been lots of people who 
have benefited, but there are also lots of people who have been 
hurt, as I said, through no fault of their own, and we need to 
do a better job through adjustment assistance, through 
insurance, or other programs that CED has talked about in other 
reports.
    But this, I would see, as part of the strategy of trying to 
make the front-end investment in future productivity.
    But if you go through and you train for one thing and then, 
through no fault of your own, you find out that your skill is 
no longer valuable, then we need to think about how to help 
those people with income support and other types of assistance 
because it is not their fault.
    Mr. Hare. Thank you.
    My other question is for Ms. Priestly and Ms. Chun, if you 
could maybe talk about this a bit. According to the National 
Center for Education Statistics, they report the status of 
education in rural America, and it says rural areas maintain 
the lowest level enrollment in pre-K programs when compared to 
urban and suburban areas.
    My congressional district has a lot of rural areas, and, 
you know, sometimes you would swear that if you do not live in 
Chicago or Rockford or Peoria that you do not have kids that 
need pre-K, you do not have people that need health care in the 
rural communities, and so, you know, in your experience in 
hard-to-serve areas, what are some of the major barriers in 
expanding access to pre-K programs?
    In other words, what can we do to expand those, and what 
strategies would you recommend for improving and delivering 
services pre-K, particularly in the rural communities?
    Ms. Chun. I can start that. In Hawaii, as I demonstrated in 
my chart, we have a number of rural communities where 
developing new facilities will be very difficult. We are 
bringing together families and young children in something, as 
I said earlier, called parent and child early learning 
interaction programs in which they come to a neighborhood 
place, very much donated sometimes by the elementary school, 
and they have a quality educator. In fact, our Keiki Start 
program recommends that person actually have beginning with an 
associate's degree.
    But they are from the community and they come up from the 
community so the families and parents know them, and through 
this program, we are actually developing new people to go into 
the field as well as expanding access. We are lucky they can be 
on the front lawn all year round of the elementary schools, and 
they do quality interaction activities. So they increase the 
early education as well as get them ready to go into elementary 
school and use a good provider as well as we are building the 
field at the same time.
    Ms. Priestly. And I would just say while I happen to live 
and work in the very populated area of New Jersey, and New 
Jersey being a small state, we do have rural areas that were of 
high consideration during our expansion in New Jersey, and I 
have colleagues who work in those areas.
    So, while we are following the same guidelines and 
accountability measures in how we are implementing it in their 
areas, everybody has to address it according to the needs of 
the area, and the first thing we do is, obviously, find the 
families and find the children and see what the needs are. But 
we are providing those programs.
    Transportation becomes an issue in our rural areas. We have 
to look at that differently. I am in a walking district, two 
miles square. Everybody can get there, you know, some way. So I 
think that is one of the big hurdles.
    The support staff, the teachers, everybody--just making 
sure we have enough staff--is important, as you mentioned, and 
then training them well to be able to go out in the field 
there, but it certainly, I think, extends from making sure we 
are finding all those children who need it.
    Mr. Hare. One last comment. I will not go into this. I 
think you mentioned teacher mentoring programs in your remarks. 
I think those are wonderful things to do. If we are going to, 
you know, A, recruit and then retain teachers, regardless of 
whether it is pre-K all the way up, I think those are wonderful 
things, and we need to do more of them, and I am hoping as we 
do the NCLB that we can, you know, really bump up the teacher 
mentoring programs.
    Thank you.
    Thank you, Madam Chair.
    Ms. Hirono. Thank you.
    Mr. Keller, you are now recognized for 5 minutes.
    Mr. Keller. Thank you, Madam Chairman.
    And as I was listening to our experts, I was reflecting on 
my own life. I have three very small children and a fourth on 
the way in a couple of weeks. So, frankly, I am just happy to 
be out of the house right now. [Laughter.]
    But I was thinking about why they had a good early 
education experience, and in each case, they had a very high-
quality teacher, and it pretty much turned out to be luck on 
our part that we just ended up with someone who is a great 
teacher.
    Mr. Karolak, can you tell me if parents are out there today 
and they are looking at early childhood programs, what would be 
the top three elements that you would recommend to a parent as 
to what they should be looking for in an early childhood 
education program?
    Mr. Karolak. Thank you for the question.
    You know, there is no question that the most important 
determinative quality is the staff. I mean, on some level, all 
you have are your staff. They are the folks who work with 
children every day. They meet parents every day. They talk 
about the learning and development of the child with the parent 
every day. There is no doubt that is the most important element 
of quality.
    Besides that, though, there are other factors, having a 
solid curriculum, an intentional curriculum that is backed by 
research. When I took this job about a year ago, I was, I have 
to say, surprised. I did not realize how much money was put 
into curriculum development by the various providers that I 
represent who are very much large-scale providers, for-profit 
and not-for-profit.
    So having a plan of action for that staff person, the 
teacher to work with is very important, and I think there are 
many other factors as well.
    Mr. Keller. So, if we had the top three, it would be 
teacher quality, number one, a solid curriculum, number two. Is 
there a number three?
    Mr. Karolak. I hesitate to rank further down, but I also 
think that it is really important that you have a 
developmentally appropriate early learning environment that is 
experientially rich, that is aimed at young children. We see on 
both the child care and in some cases in public school pre-K 
that those environments are not quite right.
    Mr. Keller. What does that mean? Like puzzles that have 
ABCs? Or what type of environment are you looking for?
    Mr. Karolak. It is a fallacy to think that focusing on 
cognitive development alone is the best way to prepare children 
for school and life. Researchers have found--and we see this 
every day in our classrooms--that a balanced approach, that is 
focused on cognitive, social, emotional development, language 
development, that is what prepares children best, and, indeed, 
that includes----
    Mr. Keller. Okay. I am just trying to get through that. I 
do not want to cut you off, but I do not have a--so good 
teacher quality, good curriculum, some type of positive 
environment that focuses on lots of things--academics, social 
development, the whole package?
    Mr. Karolak. Well, part of that experientially environment 
is materials, educational materials. Children need to have 
things to work with, and they need to have people who can 
encourage them to work collaboratively with other children. 
That is part of that social-emotional development.
    Mr. Keller. I appreciate that. And you have a doctorate, 
but if I was going to talk to a regular parent and say, ``I 
want you to pick an experientially enriched environment with 
collaborative skills,'' they would say, ``What the hell are you 
talking about?'' I mean, the average parent is not going to 
know what you are talking about. But you know what you are 
talking about.
    Mr. Karolak. Well, you should be going to look at that 
center----
    Mr. Keller. Right.
    Mr. Karolak [continuing]. Wherever that location is, and 
you should be evaluating that on your own, but there are 
resources available through a number of national organizations, 
also some federally funded----
    Mr. Keller. Thank you.
    Mr. Kolb, you said that the federal government sometimes 
tends to focus on programs instead of people, and I agree with 
that, and the teacher quality issue is a perfect example. How 
does a parent know on the front end when you go to interview 
different early childhood education programs whether this 
program is going to have a good teacher? And as a parent, I 
just looked around and asked people, but maybe you have some 
ideas.
    And then, second, do you have any ideas, if quality is so 
important for the teachers--and I think we agree it is--on how 
we attract the higher quality folks and, I guess, weed out the 
folks who are not so high quality? I would love to hear your 
thoughts on that.
    Mr. Kolb. As you asked the question about your three things 
you would look for, I have first quality of the teachers and 
the curriculum; second, the environment, just the overall 
environment. You know, is it playful? Do the children interact? 
Do they get the curriculum?
    The third thing I put down was openness to parents because 
remember a lot of what happens during a child's life is not 
just in a preschool or early education environment. It is in 
the home, and so I think you need to look for what the 
environment of that school is and if the teachers are open to 
engaging the parents in what is going on in that young person's 
life throughout the day and also kind of taking those 
principles home.
    On the issue of quality, I think you have to look at it 
from a pipeline perspective. I mean, there is a story in the 
Washington Post this morning, I believe, about what bond 
traders are making in New York, you know, and some of them are 
in their early 20s. It is multiples, frankly, of what we pay 
people in early education. So we need to value those skills and 
put a higher price tag on those skills, if you will, and then 
encourage people early on in their careers to look at becoming 
engaged in early education.
    Mr. Keller. Thank you.
    Mr. Kolb. You are welcome.
    Ms. Hirono. Thank you.
    Mr. Payne, you are recognized for 5 minutes.
    Mr. Payne. Thank you very much.
    Let me thank the panel. I think this has been a very great 
discussion, and I really had a revelation here. I did not think 
that Ms. Foxx and I would really be on the same page that much, 
but I find today with your profound statement about the 
necessity of having quality people at the early end I could not 
agree with you more. I knew the longer we stayed here, there 
would be something that we are going to find in common.
    As a matter of fact, from experience, I taught school for a 
number of years, and I started out as a secondary school 
teacher, like most men do, and was a coach and all that, but 
then I was disappointed at the preparation that the kids had, 
and I said, ``Well, let me just try junior high school level,'' 
and I went the opposite direction.
    And after 3 years in high school, 3 years in junior high, 
decided I still was not satisfied, so I actually went to 
elementary school for about 3 or 4 years and taught a sixth-
grade level, and I agree that, believe it or not, the necessity 
to have strong, positive teachers in elementary school and just 
getting down to preschool is just as important, and so I would 
hope that we could do something with No Child Left Behind.
    I agree that preschool somehow should be--or pre-K--
involved in NCLB. I do not think it will happen as we 
reauthorize it, but I would like to see something come up 
perhaps as soon as possible to deal with that.
    I coached on the high school level, but then I also coached 
a little Pop Warner where you take the kids at 7 or 8 years 
old, and you teach them the fundamentals. Those kids usually 
avoid injuries, and when you teach them properly at the early 
age, they become better participants.
    So I guess my time is running out.
    Let me just ask, Ms. Priestly, in your opinion--and anyone 
else could jump in if there is any time left--what immediate 
steps do you think we can make, this committee can make, to 
increase high-quality early education for all children? What 
would be some things that you would like to see or you would 
recommend?
    Ms. Priestly. Well, first of all, along with Ms. Foxx, I 
know now that you said you agree on certain things. The 
accountability part, the leadership part is so important. We 
keep talking about, you know, the people in the relationships, 
and I think the support has to stem, you know, with our 
collaboration, our collaboration with Head Start and other 
private providers, just like we are doing today.
    I think that has made a big difference in our small 
district, that the collaboration, having that time to be able 
to get together and see what we bring to the table and how we 
can support each other, and what we need, and so, of course, 
the dollars are important. We need the dollars to support every 
level right down to those classroom materials that the children 
interact with every day along with their relationships with the 
adults.
    As the committee, of course, you are looking, you know, 
nationally, as the Congress, and, of course, the dollars and 
the laws that follow it. You know, even on our local level, we 
say if we did not have the guidelines and certain things in 
code, it would be a lot harder to make sure these programs are 
of quality because, as you start out and build those 
relationships, those guidelines from the experts are really 
important, and it is easier to implement the program.
    So, again, I think in your capacity, that is where it 
stands, provided those regulations are appropriate for young 
children and the teachers that work with them.
    Mr. Payne. Great. I thank you very much. I think that the 
environment, as it was mentioned by Mr. Kolb, is very 
important, but we do have differences.
    The Kerner Commission report, you know, written 50 years 
ago, I guess, almost, talked about, you know, two societies, 
poor and rich. We really have to somehow deal with the whole 
question of poverty, the environment, where kids will learn 
better. The facilities, the community, the housing, the 
nutrition, all of these things, I think, go into having a 
strong education at a beginning level.
    And so I would just like to once again, since my time has 
expired, really thank all of you for your wisdom and, 
hopefully, we will be able to get it straight. One thing, I 
never hear a cry for vouchers in very good school districts. 
You know, they do not ask for them because the public school is 
doing the job. I would like to see that really in every school 
district.
    Thank you.
    Ms. Hirono. Thank you.
    Mr. Davis, you are recognized for 5 minutes.
    Mr. Davis of Tennessee. Thank you, Madam Chairman.
    I would like to thank the panel for being here today. Thank 
you for your involvement and your concern in educating young 
children.
    Just a small background, my father has a sixth-grade 
education. I came out of the mountains of Tennessee. My father 
grew up in the Depression Era, and I was able to put myself 
through college. I was able to come to Congress, started 
several business. So just because you are poor does not mean 
you cannot succeed, and I hope everybody understands that.
    The person that started Ford Motor Company, Henry Ford, 
once said, ``If you think you can do a thing or think you can 
not, you are right,'' and I use that a lot when I talk to young 
people back in my district. So I think it is important that we 
understand that having a family atmosphere, having people 
around you that want you to succeed, as well as programs at the 
federal and state level, community level, are all important.
    So thank you for your interest in young children.
    And with that, I would like to yield the remainder of my 
time to my good friend from North Carolina, Ms. Foxx.
    Ms. Foxx. Thank you, Congressman Davis.
    If you believe in mental telepathy, we have a great example 
of it right here. I was going to make the same comments about 
poverty that my colleague just made.
    I grew up in the mountains of North Carolina in the 1950s 
and 1960s--I graduated from high school in 1961--and I can tell 
you that everybody in my class was extraordinarily poor, and I 
was among the poorest of those. My dad had a ninth-grade 
education; my mother, a sixth-grade education. They were not 
unintelligent people. They did not have formal education, just 
like most of the people in my area.
    And when I reflect a little bit on my background and the 
people that I grew up with, we were all poor, and yet we did 
not have any government programs at all to help us get out of 
poverty or to learn, and yet I would put my class that 
graduated in 1961, of all poor people, up against any high 
school graduating class right now in terms of their ability to 
learn and what they did learn.
    So I wanted to make that comment about the fact that it is 
not always poverty, and I see well-to-do people right now whose 
children are not getting the kind of educational stimulus and 
background that a lot of poor children are getting. So I think 
it is wrong that we always focus this on the issue of poverty 
because there are lots of different ways that you can be 
impoverished, and you can be impoverished right now, not just 
with material things, but with the environment.
    So that was sort of leading up to the question that I have. 
I am very much a small government person. However, I am 
realistic enough to know that we are not going to get rid of 
most of these government programs that we have. So it seems to 
me that what we have to do is to look at how do we balance the 
role of the government and the role of parents here.
    And I will tell you again I taught in a university for 15 
years. I told my students everybody could make an A. Not until 
I had been teaching for a long time did I reflect back. I had 
almost a perfect bell-shaped curve in grading every single 
semester. Now it made a believer out of me that it exists. I 
did not believe it when I started teaching.
    So we are going to have that. I do not think we can deny 
the fact that we are going to have differences in ability and 
differences in performance, but how do we balance the role of 
the parents and these well-intentioned government programs in 
helping our children do better? So any kinds of responses that 
you can give, I would appreciate it.
    Ms. Priestly. Well, I would just start by saying--and then 
passing it along--we include parents every step of the way, 
from the very beginning with a family or parent interview, to 
home visits, to parent education, parent workshop, programs in 
the classroom, out of the classroom. It is a major, major 
component where I am, and I think that is important for 
everyone in whatever way when we are dealing with children who 
exhibit challenging behaviors or other learning delays that the 
parents are included in everything we are dong.
    Ms. Chun. I think this goes back to the discussion earlier 
on what is a quality program, and a quality early education 
program recognizes that the parent is the child's first 
teacher, and what they need to do is stem from the home 
experiences, build on the home experiences, and encourage the 
parents to remain involved with their young child.
    The reality is, in Hawaii especially, and I think around 
the country, 75 to 76 percent of the parents of our young 
children are working and need a place for their child to be. 
So, as this is a workforce reality, we have to make sure that 
as we develop the programs, we maintain the component. That is 
the strength of Head Start.
    And in the Keiki First program that we are doing in Hawaii, 
we maintain that role, that parents come with the child. They 
come in a way that they are involved. If they cannot be there 
during the day, they are involved and knowledgeable about their 
child's program, and they are part of the whole picture for a 
young child.
    When I look at later education and we go back and wonder 
what can we do with families----
    Ms. Hirono. Can you wrap up? The gentlewoman's time has 
expired.
    Thank you.
    Mr. Sarbanes, you are recognized for 5 minutes.
    Mr. Sarbanes. Thank you, Madam Chair, and I salute you for 
your work on this issue and convening the hearing today.
    I had a couple of questions that are sort of scattered 
around, but, Dr. Phillips, I am very intrigued by all the brain 
research that you alluded to, and I was wondering when does the 
kind of impediment to good brain development get to the point 
of warranting characterization as brain damage in a sense.
    I mean, nobody talks about it in that way, but I imagine 
you could point to at least an analogy there to brain damage, 
and maybe brain damage is when circuits that have already been 
built are broken as opposed to circuits that do not get built 
in the first place, but if you could just react to that prism, 
if you would----
    Ms. Phillips. It is a hard question because, in a way, you 
are asking, I think, about thresholds. At what point, you know, 
is the damage so severe that you cannot turn it around. Is that 
a fair characterization?
    Mr. Sarbanes. Fair enough, yes.
    Ms. Phillips. You are right. It is not that circuits are 
not getting built. What is happening is that they are getting 
built in a very fragile way. So I think the stress literature 
is very instructive here. So what happens with a child who is 
growing up with a persistently depressed parent, for example, 
going to the importance of parents, who is not able to get 
beyond that depression to interact in responsive kind of serve-
and-return ways, what happens with that child, if you look at 
their brain, is that their brain looks like the brain of the 
depressed mother, okay, in terms of its electrical activity. It 
looks like our brains look when we see a very sad movie. The 
difference is that our brains recover very quickly when we walk 
out of the movie, you know, but, you know, you have to fix the 
mother to fix the baby's brains. Otherwise, they are in that 
persistent environment.
    There is really minimal evidence, except in the visual 
system and so on, for example, that there is a window that 
slams shut at some point and there is no point of return where 
damage cannot be repaired. The brain story is more one of it 
just gets harder and harder and harder to fix damage that is 
done when children are young. Going back to fetal alcohol 
syndrome, you know, I mean, that is the challenge.
    That is the neuroscience equivalent of the economist and 
businessperson saying invest early. It is just more efficient 
because those circuits have not gotten solidified yet.
    Mr. Sarbanes. Okay. I am also curious how you see the 
interplay of early childhood development with this whole new 
technology era that we have living in, particularly how much 
technology young children are consuming today, and I would like 
you to answer--and anybody can answer--in a couple of ways.
    One is, you know, what is the harm that is presented by 
that, but, also, do you envision good uses of technology by 
young children and starting at what age and at what levels of 
consumption, because we are certainly moving in a direction 
where using those tools, I think, effectively to help children 
learn and to spur cognitive development makes sense.
    But trying to find what that happy medium is, is, I think, 
tricky.
    Ms. Phillips. So I have a colleague who actually studies 
this. I would be happy to give you her name, a couple actually 
who look at technology with very, very young children, 
toddlers, and uses of technology. It can be a curse, and it can 
be a blessing, and it all boils down, like a curriculum, to 
what happens in whose hands is that technology being put, and 
in terms of young children, you know, what is the role of the 
adults who surround them in sort of introducing them to that 
technology, you know, working with them around that technology. 
It depends. I know I sound terribly like a researcher saying 
that, but, actually--and I am sorry Mr. Hare is not here--
technology is also part of the answer to rural families and 
children.
    Mr. Sarbanes. Right, right.
    Ms. Phillips. You know, huge, tremendously exciting, 
advancements are being made in long-distance learning that can 
be applied for teachers, that can be applied to early childhood 
classrooms. So, again, it is----
    Mr. Sarbanes. Right. I have run out of time. Thanks very 
much.
    Ms. Hirono. Thank you.
    Mr. Sestak, you are recognized for 5 minutes.
    ` SESTAK: Thank you, Madam Chair.
    I walked in, Dr. Phillips, when you were mentioning a 
comment--and I am sorry I did not catch it, therefore--on the 
military and some impacts.
    Ms. Phillips. Oh, yes.
    Mr. Sestak. What was that statement?
    Ms. Phillips. So the four branches of the U.S. military----
    Mr. Sestak. I did not see it in your testimony, but dare I 
just----
    Ms. Phillips. It is buried somewhere. I can tell you.
    Mr. Sestak. That is okay.
    Ms. Phillips. I do not talk about it very much in this 
particular testimony, but the four branches of the military 
require every single one of their child care homes and centers 
to be accredited, NAEYC accredited. This is a voluntary 
program, but they are a set of comprehensive guidelines. You 
may be familiar with it.
    Mr. Sestak. Yes, I did note there was some study done.
    Ms. Phillips. Yes.
    Mr. Sestak. There are so many studies.
    I spent yesterday, you know, at a community pre-K or 
whatever, with a lot of people talking about this issue. I am 
quite taken by, as my colleague was, by a lot of the research 
you have done.
    I had to spend the time about 2 years ago with my young 4-
year-old daughter in an oncology ward, brain tumor, and I 
watched, and we were discussing the impact upon these various 
2-, 3-, 4-, 5-year-old kids as they went through brain tumors 
and chemotherapy and radiation and all, and, you know, sat down 
with some doctors afterwards, and they almost speak like you do 
about, you know, how is the support from the families and what 
the impact is upon them, you know, like your analogy, you know, 
like watching a bad movie, and are they able to come out of it 
or not. It depends upon the support system.
    And I am quite taken in the area here of pre-K, and I very 
much do agree with the issue of the colleague on the other side 
about parents and support, but the fact of the matter is our 
families are being structured as they were 50 years ago, back 
in the 1960s and the other areas. I spent 31 years in the 
military, so I am very familiar with what we do there.
    My take on all of this is that--and I am not so much asking 
a question--I am just so taken with what I consider a minimal 
investment in order to have the cognitive ability of these 
children to garner so much for our economy for themselves. I 
mean, every study I read varies, but if it is $1 in, it is 
either $7 out or $8 or $6 out or $16 on the outside.
    And, you know, as I was sitting here yesterday, I was so 
struck, you know. No Child Left Behind, up until last year, $54 
billion underfunded or $51 billion, and, you know, college 
affordability going out of sight, and to get attention to this 
issue is hard because you do not see the deficits that you are 
creating. It is not a negative impact, so to speak, right there 
where your kid cannot go to college. It is, you know, so 
obvious, it is a deficit you are building up in the future.
    So I do not have much to add, except I thought all your 
testimony was tremendous. I have the kids into military all the 
time. On long-distance learning, you are absolutely right, and 
there is a lot to learn from it. I have nothing more to add, 
just I think this is where I would put the marginal dollar when 
and if we get it.
    Thank you.
    Ms. Phillips. Thank you.
    Ms. Hirono. Thank you.
    Ms. Clarke, you are recognized for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chair. This has been 
a really stimulating discourse.
    It is a very important issue, and as the child of a mother 
who started her early career as an early childhood educator, I 
can truly, truly relate to where we are today. It is actually 
kind of dumbfounding that we are not much further advanced 
because the daycare movement has been going on for quite some 
time, and that has evolved into our early childhood education, 
and in a city like New York, you know, we had really, really 
struggled around that. I remember parents taking buses to 
Albany, and I am on there with my lunchbox because my mom is in 
the movement, and we are trying to make sure that mothers, 
families have access to early childhood education.
    So I want to direct my question, first of all, to Ms. 
Priestly. Everyone acknowledges the importance of parental 
involvement, and I want to make sure that we are really talking 
about all parents because, you know, I come from a very 
fortunate, two-parent household, and I have had it all my life, 
but I think oftentimes we do not look at the fact that there 
are a lot of younger parents out there, there are a lot of 
caregivers, foster care, grandparents, there are single-parent 
households, and we know that their involvement in early 
childhood education is critical. Head Start, for example, 
prides itself on the success of the participation of parents in 
the Head Start program.
    Can you describe successful parental outreach strategies 
used by your school district, and I am particularly interested 
in the strategy used to reach out to parents of English 
language learners and other parents who have traditionally been 
less involved in their children's school.
    Ms. Priestly. Thank you.
    Everything you said is what I experience every day. I 
actually have a social worker who is under me. That is her 
role, and I say her role. It is all of our role. That is the 
thing. It never ends. She helps coordinate. Because we have 
family workers that are in each of our child care centers in 
Head Start, we treat that like everything else that we do on a 
tiered level where we just brainstorm. We get together and we 
brainstorm, and nothing is thrown out.
    Whether we are reaching two parents or we have 100 parents 
at anything we do, whatever we need, and that is where I 
started to list between home visits, the parent interviews. It 
is not about the quantity of time with the parents, the quality 
of the time from our end, whatever we can do to bring that 
parent in, not waste their time, go to their homes, meet them 
on neutral turf. You know, again, we never say, ``Oh, we are 
not going to have any more of those workshops or meetings 
because only six parents came.'' Those six parents go out and 
tell six more parents----
    And you mentioned English language learners, especially the 
cultural aspect of that. At our local Head Start, our numbers 
have increased dramatically of the English language learner 
families, and we were not reaching them as well, so, again, we 
had to sit down and brainstorm, and we started to have--you 
know, we always have translators--families who came together. 
They walked the children together. We started with that group, 
asked them to get some other people, promised child care at 
night, what time works best for you. We found Friday nights 
when they pick the children up from aftercare, they will stay.
    You know, again, I have lists and lists of things that we 
have tried, what works, what does not. We always reflect back 
on what works, who did we reach, and then at our own meetings, 
I meet with the center directors in Head Start, everybody. We 
all meet once a month in a, you know, regular structured 
meeting, and at that time, that is what we share, you know, how 
were you successful with your parents.
    And then we also have a big movement with transitioning 
families from early intervention into preschool, from preschool 
to kindergarten, and then we make sure that we are bringing in 
people from the community as well as foster parent groups. We 
cover it all. It is an integral part of our program.
    Ms. Clarke. Very good. That is very encouraging, and 
perhaps that is a model that can be built out upon across the 
nation.
    Ms. Priestly. I can get you more information.
    Ms. Clarke. Yes.
    Much of the testimony today highlights the benefits of 
early childhood education for all children and its linkage, 
therefore, to the long-term success of the county. In 
particular, it is noted that children from low-income 
households benefit the most from quality early childhood 
education. Can you explain why children from low-income 
households seem to benefit the most from early childhood 
education compared to children from other socioeconomic groups?
    Mr. Haskins. I would say the reason is that the increase in 
quality----
    Ms. Hirono. Excuse me. If you can just keep your answer 
very brief because we are out of time. Go ahead.
    Mr. Haskins. Okay. I would say that the answer is somewhat 
straightforward. The environment in which they are reared in 
terms of the language they hear, the discipline, the order 
compared to the high-quality child care center--the high-
quality child care center is much better on all those 
dimensions relative to their home than it would be for middle-
class kids.
    A lot of people do not like that, but there is a ton of 
research to show that that is the truth, and, in fact, that is 
the basic idea behind Head Start, that Head Start can put kids 
in a center and give them experiences with teachers and 
curriculum and so forth that they would ordinarily miss out on 
in their home and that will affect their development, and it 
turns out that is true.
    Ms. Clarke. Thank you very much, Madam Chair.
    Ms. Hirono. Thank you.
    Mr. Holt, you are recognized for 5 minutes.
    Mr. Holt. I thank the Chair and commend her for holding 
these hearings, and I must say all the witnesses have presented 
articulate and really useful testimony.
    But we all feel this frustration. Whenever we talk with 
constituents who speak their minds to us, they accuse us of 
being shortsighted and not spending time on or devoting 
appropriations to what is really important to Americans or 
making the most efficient use of their resources, and this is, 
of course, probably best example, when you look at the 
cognitive benefits and the social benefits and the behavioral 
benefits. $33 billion calculated some years ago or, say, $100 
billion today should not seem like too much, and, in fact, 
considering the way we have been spending money in the last few 
years only to hurt ourselves, no one can ever say to me again 
for a social program, ``We just do not have the money,'' or for 
an educational program.''
    But let run through three questions I would like to have 
answered. I will lay them on the table, and recognizing the 
limited time, I would like you to run through them quickly.
    There is, as Dr. Phillips and others have pointed out, 
quite a bit of research. One of the questions is are the 
training programs at the college and university level behind 
the curve, or are they really up to date in teaching? And this 
would be for teacher training as well as for teaching those who 
go into parent training. Are they up to date on the research?
    And I would like to ask, Ms. Priestly, what would you say 
are the most important lessons that New Jersey has learned that 
we should share with the country, and specifically in special 
education? Is recognition of the special needs and 
differentiation more or less important in the pre-K years, or 
is it, say, equally important as later? In other words, should 
we have special programs for special students in these years?
    Let me let it go at that because there is probably not time 
for my other questions.
    Ms. Priestly. Okay. If I start with your last one about 
special needs children, I will never stick to the time, but 
just let me briefly say because, you know, that is one of my 
pets of this.
    I pride myself on the fact that we have--we will fall into 
the lessons of New Jersey, too. One of the biggest and most 
important parts of the whole early childhood movement in New 
Jersey is that--and, in my case, right in my district right 
now--we have inclusive programs. Our 3-and 4-year-olds--you 
know, identifying those learning differences and social 
disabilities and everything is very important, but it is how we 
handle it.
    It is working with the parents, it is the early 
intervention strategies, it is training the teachers, and what 
we have done is our children are all--except for a couple of 
self-contained special education classes where the needs at 
this moment cannot be met in the general education classes, our 
3-and 4-year-olds with disabilities are included in the general 
ed preschool classrooms, but not without support. We have 
preschool inclusion teachers who go into those classrooms and 
work alongside of the classroom teacher.
    We use it as a consultation model as well. We do teacher 
training so that they are modeling for those classroom teachers 
because we know that all the intervention strategies need to 
happen on a regular basis to make a difference at the same time 
we work with the parents to see what else can be done at home, 
and so, again, that teacher education part is very important, 
and the training is very important.
    And then whatever other needs, as I said, are not met in 
the general ed class, then we provide those services, whether 
it is additional speech and language therapy, occupational 
therapy, whatever is identified in their individual education 
plan.
    So that to me is one of the lessons.
    The other thing we did is we--I always talk about the 
tiered approach because you cannot do it all quickly. So, when 
we worked with the leaders, the supervisors and master teachers 
and everybody in New Jersey so that they would be able to go 
back to their districts, get the training and go back and make 
sure things happened, one of the other things we did was create 
a preschool intervention and referral specialist team not to 
identify children and send them to special programs, but to 
work with the parents and the teachers.
    Mr. Holt. Thank you. Let me ask the others, particularly on 
the preparation in the teacher training and parent training 
programs, whether we are current.
    Ms. Phillips. I cannot directly address that because I have 
not looked specifically at that. I know there are concerns 
about that, but I can give you a couple of observations.
    Ms. Hirono. Can you be sure to keep your response short 
because we are also going to be called for a vote on the floor 
in a few minutes.
    Ms. Phillips. Okay. Then I will just give you two 
sentences. The teachers in Tulsa who provided more time on task 
and provided better instruction for their students got higher 
grade-point averages out of their BA's in early education and 
education. That suggests that the teachers who are really 
getting the most out of their undergraduate educations are 
doing the best are doing well.
    So, clearly, those schools are doing well. We are talking 
about, you know, schools in Oklahoma. We are not talking, you 
know, better excellence, but they are not your Harvard School 
of Education. So, yes, they can do a perfectly good job.
    Mr. Holt. I think Ms. Chun is trying to get a word in here.
    Please.
    Ms. Chun. Just real quickly, in Hawaii, we are expanding 
our distance learning, and with the distance learning, we know 
we must combine that with mentoring in the classroom. We also 
realize we must increase the preliteracy abilities of our early 
education teachers to be able to teach preliteracy concept 
along with strong child development. We are looking closely at 
our courses right now with our community college and how they 
articulate to our higher education.
    Ms. Hirono. Thank you.
    I would like to once again thank all of our witnesses for 
coming today and enlightening us. I think we are all on the 
same page on the importance of quality early education.
    I would like to add, though, that there was a lot of 
testimony and discussion about the need for coordination of 
early childhood services, and that is important, which is why 
we took numerous steps in the new Head Start law to improve 
coordination at the state and local levels.
    At the same time, though, we know that it is not just 
coordination. When we look at the fact that 39 states do not 
require child care providers to have any training before 
entering a classroom, that oversight and accountability of 
child care is generally minimal, and, in fact, in California, 
the Chair noted that programs are only inspected once every 5 
years. One-third of the state's pre-K programs do not meet more 
than half of the key quality criteria. And Ms. Chun explained 
that Hawaii has literally half of the necessary workforce to 
provide high-quality care and that low-and middle-income 
families are priced out of quality child care and preschool 
experiences.
    So, when we look at the national picture of standards and 
quality of child care and pre-K education, we conclude that the 
big solution is not just about coordination, that is 
oversimplifying, that we really need to look at standards, and 
we need to provide, I think, more funding--appropriate 
standards, and funding and federal support.
    So, with that, if there are no objections, the members will 
have 14 days to submit additional materials or questions for 
the hearing record, and without objection, this hearing is 
concluded. Thank you.
    [Additional submission by Ms. Hirono follows:]

Prepared Statement of Matthew Melmed, Executive Director, Zero to Three

    Chairman Miller and Members of the Committee: My name is Matthew 
Melmed. For the past 13 years I have been the Executive Director of 
ZERO TO THREE, a national non-profit organization that has worked to 
advance the healthy development of America's babies and toddlers for 30 
years. I would like to start by thanking the Committee for its 
continued interest in early childhood education. I would also like to 
thank the Committee for providing me the opportunity to discuss the 
importance of investing in early education, particularly for our 
nation's infants and toddlers.
The Importance of the Earliest Years
    Some may wonder why babies matter in public policy. While almost 
every social policy--from education to welfare reform to substance 
abuse and mental health--affects infants and toddlers, the impact of 
these policies on very young children is seldom sufficiently addressed. 
Instead, policies often focus on the effects of ignoring the needs of 
infants and toddlers, for example, by having to address the cognitive 
gaps between low-income preschoolers and their more affluent peers or 
providing intensive special education services for problems that may 
have begun as much milder developmental delays left untreated in a 
young baby.
    Science has significantly enhanced what we know about the needs of 
infants and toddlers, underscoring the fact that experiences and 
relationships in the earliest years of life play a critical role in a 
child's ability to grow up healthy and ready to learn. We know that 
infancy and toddlerhood are times of intense intellectual 
engagement.\1\ During this time--a remarkable 36 months--the brain 
undergoes its most dramatic development, and children acquire the 
ability to think, speak, learn, and reason. The early years establish 
the foundation upon which later learning and development are built. If 
experiences in those early years are harmful, stressful, or traumatic, 
the effects of such experiences become more difficult, not to mention 
more expensive, to remediate over time if they are not addressed early 
in life.
    All babies and toddlers need positive early learning experiences 
and consistent quality caregivers to foster their intellectual, social, 
and emotional development and to lay the foundation for later school 
success. The years during this most critical of developmental stages 
may be even more crucial for young children living in poverty.
    Of the 12 million infants and toddlers living in the United States, 
44%--a staggering 5.4 million--live in low-income families (defined as 
families with incomes at or below twice the federal poverty level or 
$41,300 for a family of four).\2\ What is particularly troubling, in 
addition to the rise of childhood poverty, is the fact that very young 
children are disproportionately impacted by economic stress--that is, 
the negative effects of poverty are likely to be more severe when 
children are very young and their bodies and minds are still 
developing. Infants and toddlers in low-income families are at greater 
risk than infants and toddlers in middle- to high-income families for a 
variety of poorer outcomes and vulnerabilities that can jeopardize 
their development and readiness for school, including learning 
disabilities, behavior problems, mental retardation, and developmental 
delays.\3\
    Mr. Chairman, my message to you is that babies can't wait! We know 
that investing in quality early care and education programs for our 
nation's infants and toddlers promotes healthy development in young 
children.
Investing Earlier
    Although there is a growing interest nationwide in early childhood 
services in the years immediately preceding kindergarten, for our most 
vulnerable at-risk infants and toddlers, the achievement gap often 
emerges long before they reach the preschool door. We know that high 
quality early learning experiences during the infant and toddler years 
are associated with early competence in language and cognitive 
development, cooperation with adults, and the ability to initiate and 
sustain positive exchanges with peers. With high quality, effective 
services, those infants and toddlers who are competent, yet at-risk for 
compromised development, will be better equipped to reach their full 
potential in life. Without increased investments focused on the 
availability and accessibility of quality early care and education 
experiences, many infants and toddlers will continue to be left behind.
    Not only do infants, toddlers, and their families pay a price for 
our failed policies, so does all of society. Effective, evidence-based 
early childhood policies, programs, and services go a long way in 
supporting stronger families and communities. They are also fiscally 
sound investments which can reduce the need for more expensive reactive 
interventions and governmental supports in the future. In fact, 
economists have found that for every dollar invested in early childhood 
programs, savings of $3.78 to $17.07 can be expected.\4\ While many of 
these savings benefit individuals, the public reaps far more of the 
benefits in terms of reduced crime, abuse and neglect, and welfare 
dependency while increasing educational performance and job training, 
leading to higher incomes and a more productive workforce. Playing 
catch up later in life is expensive and inadequate. We need to address 
the needs of vulnerable infants and toddlers today. Children who start 
behind, stay behind!
    High quality early care and education programs provide protective 
buffers against the multiple adverse influences that may hinder a young 
child's development in all domains. Therefore, it is extremely 
important to invest in programs such as Early Head Start, the Child 
Care and Development Fund (CCDF), and Part C of the Individuals with 
Disabilities Education Act (IDEA).
Early Head Start
    Early Head Start is the only federal program specifically designed 
to improve the early education experiences of low-income infants and 
toddlers. The mission of Early Head Start is clear: to support healthy 
prenatal outcomes and enhance the intellectual, social and emotional 
development of infants and toddlers to promote later success in school 
and life. It does so by offering early learning experiences, parent 
support, home visitation, and access to medical, mental health and 
early intervention services. This comprehensive approach supports the 
whole child--physically, socially, emotionally and cognitively--within 
the context of the family, the home and other child-serving settings.
    Research demonstrates that Early Head Start is effective. The 
Congressionally-mandated Early Head Start Research and Evaluation 
Project--a rigorous, large-scale, random-assignment evaluation--
concluded that Early Head Start is making a positive difference in 
areas associated with children's success in school, family self-
sufficiency, and parental support of child development. For example, 
Early Head Start produced statistically significant, positive impacts 
on standardized measures of children's cognitive and language 
development.\5\ Early Head Start also had significant impacts for 
parents, promoting family self-sufficiency and parental support of 
child development. Children who participated in Early Head Start had 
more positive interactions with their parents than control group 
children--they engaged their parents more and parents rated their 
children as lower in aggressive behavior than control parents did.\6\ 
Early Head Start parents were also more emotionally supportive and less 
detached than control group parents and provided significantly more 
support for language and learning than control group parents.\7\
    Furthermore, a follow-up wave of research demonstrated that a 
number of the positive impacts of participating in Early Head Start are 
still demonstrated two years later, showing that children who attended 
Early Head Start and pre-kindergarten between the ages of three and 
five experienced the most positive outcomes.\8\
    Unfortunately, Early Head Start is reaching only a small proportion 
of at-risk children and families--only three percent of all eligible 
children and families are served.\9\ Increased funding for Early Head 
Start will ensure that we reach the most at-risk infants and toddlers 
early in life when we have the best opportunity to reverse the 
trajectory of poor development that can occur in the absence of such 
supports. It will also help us ensure that parents have the supports 
they need to sufficiently nurture the healthy development of their 
infants and toddlers.
The Child Care and Development Fund (CCDF)
    Second only to the immediate family, child care is the context in 
which early childhood development most frequently unfolds, starting in 
infancy.\10\ According to 2005 data, 42 percent of one-year-olds and 53 
percent of one-to-two-year-olds have at least one regular non-parental 
care arrangement.\11\ The increase in the number of working parents 
with babies and toddlers comes at a time when science has demonstrated 
the critical importance of supporting the development and learning of 
children ages birth to three, and makes the need for quality child care 
even more significant. However, more than 40 percent of infants and 
toddlers are in child care rooms of poor quality.\12\
    The evidence associating the quality of infant and toddler care 
with early cognitive and language outcomes ``is striking in 
consistency.'' \13\ High quality child care is associated with outcomes 
that all parents want to see in their children, ranging from 
cooperation with adults to the ability to initiate and sustain positive 
exchanges with peers, to early competence in math and reading--all of 
which are key ingredients to later school success.
    While hours of care, stability of care, and type of care are all 
associated with developmental outcomes, it is the quality of care, and 
in particular, the quality of the daily interactions between child care 
providers and infants and toddlers that most significantly impact 
development.\14\ Elements of high quality infant and toddler child care 
include: small groups; high staff-to-child ratios; a consistent 
caregiver; health and safety; and cultural and linguistic 
continuity.\15\ Quality child care is also contingent upon the special 
training that caregivers receive in the profession of early childhood 
development.\16\ High quality child care where providers are both 
supportive and offer more verbal stimulation creates an environment 
where children are likely to show more advanced cognitive and language 
development.\17\ It provides environments and opportunities for 
socialization, problem-solving, empathy building, sharing and relating.
    Research indicates that the strongest effects of quality child care 
are found with at-risk children--children from families with the fewest 
resources and under the greatest stress.\18\ Yet, at-risk infants and 
toddlers who may benefit the most from high quality child care are 
unlikely to receive it--they receive some of the poorest quality care 
that exists in communities across the United States.\19\ The results 
can be devastating. Poor quality child care for at-risk children may 
diminish inborn potential and lead to poorer developmental 
outcomes.\20\
    CCDF is a block grant that provides funds to help improve the 
quality and supply of child care for low-income children and their 
families. Through the use of subsidies, CCDF helps working parents make 
informed choices about the most appropriate child care for their 
children. The infant-toddler set-aside of CCDF, currently prescribed 
through the appropriations process, has helped states focus on the 
unique needs of infants and toddlers by investing in specialized 
infant-toddler provider training, providing technical assistance to 
programs and practitioners, and linking compensation with training and 
demonstrated competence. The quality set-aside, currently 4% of the 
total amount provided under the law, allocates funds to states in order 
to support and develop innovative strategies for improving the quality 
of child care. Despite modest increases in federal child care funding, 
CCDF funds are insufficient to serve all eligible children.
    Congress should ensure that all babies and toddlers, particularly 
those living in poverty, have access to quality child care when their 
parents are at work. An increase in federal funding for child care 
would lead to increased investments in quality and would help to ensure 
that more low-income infants and toddlers have access to quality child 
care settings. More funding needs to be directed specifically at 
improving the quality of care for infants and toddlers, including 
professional development opportunities with infant-toddler content for 
early childhood staff who work with this age group.
Part C of IDEA
    Part C of the Individuals with Disabilities Education Act (IDEA) 
authorizes federal support for early intervention programs for babies 
and toddlers with disabilities and provides federal assistance for 
states to maintain and implement statewide systems of services for 
eligible children, birth through age two, and their families. For young 
children with disabilities, early intervention provides intensive 
services and supports to promote the highest possible level of 
developmental competence. For young children at significant risk, early 
intervention can protect them against influences that may compromise 
their development.
    Under Part C, all participating states and jurisdictions must 
provide early intervention services to any child below age three who is 
experiencing developmental delays or has a diagnosed physical or mental 
condition that has a high probability of resulting in a developmental 
delay. In addition, states may choose to provide services for babies 
and toddlers who are ``at-risk'' for serious developmental problems, 
defined as circumstances (including biological or environmental 
conditions or both) that will seriously affect the child's development 
unless interventions are provided. Early intervention services under 
Part C may prevent or minimize the need for more costly services under 
Part B of IDEA later in a child's life.
    Despite the promise it holds for the future, there is a wide 
variation in the percentage of infants and toddlers enrolled in Part C 
programs across states. Currently, states carry a significant burden to 
fund Part C programs, in part, because of inadequate federal funding. 
The result is that many eligible infants and toddlers do not receive 
the early intervention services they desperately need in order to reach 
their full potential in school and in life. Increased investments in 
early intervention programs will go a long way in addressing 
developmental delays at a time when we can have the greatest impact on 
a child's future.
Building the Capacity of our Nation's Early Childhood Workforce
    Our nation's early childhood workforce is facing a major crisis. 
Finding and supporting well-trained early childhood professionals who 
work with children age birth to five is a challenge; it is particularly 
difficult for professionals working with children birth to three. There 
is tremendous variability among the teachers and providers who make up 
the early childhood workforce (child care providers, Head Start and 
Early Head Start teachers, child welfare workers, and infant and early 
childhood mental health professionals). According to the U.S. 
Department of Education, training for infant/toddler professionals is 
minimal, contributing to overall personnel problems.\21\ The need for 
more and better qualified providers cuts across a range of disciplines 
and professions.
    One of the most consistent findings in developmental research links 
the quality of care that young children receive to virtually every 
measure of development that has been examined.\22\ This is particularly 
true for low-income children who are at-risk for early developmental 
problems and later educational underachievement. However, unlike 
programs that exist for elementary and secondary education teachers, 
the U.S. higher education system lacks a robust infrastructure to 
develop the next generation of early childhood professionals. We must 
build the capacity of our nation's early childhood workforce by 
creating economic incentives--including adequate compensation and loan 
forgiveness--to enable early childhood providers to seek out training 
opportunities which will allow them to provide the care needed while 
reducing the harmful staff turn-over currently plaguing the system. 
Likewise, it is imperative that colleges and universities are afforded 
grants in order to infuse infant and toddler coursework into their 
programs and develop and disseminate distance learning courses.
Conclusion
    During the first three years of life, children rapidly develop 
foundational capabilities--physical, social-emotional, and cognitive--
on which subsequent development builds. These areas of development are 
inextricably related. Yet, too often, we ignore the early years of a 
child's life in making public policy, waiting until at-risk children 
are already behind physically, emotionally, or cognitively before 
significant investments are made to address their needs. We must change 
this pattern and invest in at-risk infants and toddlers early on, when 
that investment can have the biggest payoff--preventing problems or 
delays that become more costly to address as the children grow older.
    All young children should be given the opportunity to succeed in 
school and in life. Ensuring that infants and toddlers have strong 
families who are able to support their healthy development will help 
lay the foundation for a lifetime of success. We must increase federal 
investments so that infants, toddlers and their families have access to 
developmentally appropriate early learning programs such as Early Head 
Start, quality and affordable child care, and early intervention 
services to help ensure that they are ready for school.
    I urge the Committee to consider the very unique needs of infants 
and toddlers as you invest in early childhood programs.
    Thank you for your time and for your commitment to our nation's at-
risk infants, toddlers and families.
                                endnotes
    \1\ Shonkoff, Jack and Phillips, Deborah. 2000. From neurons to 
neighborhoods: The science of early childhood development. Washington, 
DC: National Academy Press.
    \2\ Douglas-Hall, Ayona and Chau, Michelle. 2007. Basic facts about 
low-income children: Birth to age 3. http://www.nccp.org/publications/
pdf/download--217.pdf (accessed December 10, 2007).
    \3\ Shonkoff, Jack and Phillips, Deborah. 2000. From neurons to 
neighborhoods: The science of early childhood development.
    \4\ Heckman, James, Grunewald, Rob, and Reynolds, Arthur. 2006. The 
dollars and cents of investing early: Cost-benefit analysis in early 
care and education. ZERO TO THREE Journal 26 (6): 10-17.
    \5\ U.S. Department of Health and Human Services, Administration 
for Children and Families. 2002. Making a difference in the lives of 
infants and toddlers and their families: The impacts of Early Head 
Start. http://www.acf.hhs.gov/programs/opre/ehs/ehs--resrch/reports/
impacts--exesum/impacts--execsum.pdf (accessed October 23, 2006).
    \6\ Ibid.
    \7\ Ibid.
    \8\ U.S. Department of Health and Human Services, Administration 
for Children and Families. 2006. Research to practice: Preliminary 
findings from the Early Head Start prekindergarten followup. http://
www.acf.hhs.gov/programs/opre/ehs/ehs--resrch/reports/prekindergarten--
followup/prekindergarten--followup.pdf (accessed October 23, 2006).
    \9\ Note: 61,243 is the exact number of children under three served 
by Early Head Start in Fiscal Year 2005. Head Start Program Information 
Report for the 2004-2005 Program Year, Early Head Start Programs Only. 
Retrieved October 23, 2006. Note: 2,552,000 children under three in the 
U.S. live below the federal poverty level. U.S. Census Bureau. 2005. 
Current population survey, 2006 annual social and economic supplement. 
POV34: Single year of age--Poverty status: 2005. http://
pubdb3.census.gov/macro/032006/pov/new34--100--01.htm (accessed October 
23, 2006).
    \10\ Shonkoff, Jack and Phillips, Deborah. 2000. From neurons to 
neighborhoods: The science of early childhood development.
    \11\ Schumacher, Rachel, Hamm, Katie, Goldstein, Anne, and 
Lombardi, Joan 2006. Starting off right: Promoting child development 
from birth in state early care and education initiatives. Washington, 
DC: Center for Law and Social Policy and ZERO TO THREE.
    \12\ Cost, Quality and Child Outcomes Study Team. Cost, Quality and 
Child Outcomes in Child Care Centers, Public Report, 2nd edition. 
(Denver Economics Department, University of Colorado at Denver, 1995).
    \13\ Shonkoff, Jack and Phillips, Deborah. 2000. From neurons to 
neighborhoods: The science of early childhood development.
    \14\ Ibid.
    \15\ Lally, J. Ronald, Griffin, Abbey, Fenichel, Emily, Segal, 
Marilyn et al. 2003. Caring for infants and toddlers in groups: 
Developmentally appropriate practice. Washington, DC: ZERO TO THREE.
    \16\ National Research Council. 2000. Eager to learn: Educating our 
preschoolers. Washington, DC: National Academy Press.
    \17\ Ibid.
    \18\ Shonkoff, Jack and Phillips, Deborah. 2000. From neurons to 
neighborhoods: The science of early childhood development.
    \19\ Ibid.
    \20\ Ibid.
    \21\ U.S. Department of Education. 2001. 23rd Annual Report to 
Congress on the Implementation of the Individuals with Disabilities 
Education Act. http://www.ed.gov/about/reports/annual/osep/2001/
index.html (accessed December 29, 2006).
    \22\ Shonkoff, Jack and Phillips, Deborah. 2000. From neurons to 
neighborhoods: The science of early childhood development.
                                 ______
                                 
    [Whereupon, at 12:13 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
